<html>
<title> - HIGHER EDUCATION ACCREDITATION: HOW CAN THE SYSTEM BETTER ENSURE QUALITY AND ACCOUNTABILITY?</title>
<body><pre>[Senate Hearing 108-434]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-434

   HIGHER EDUCATION ACCREDITATION: HOW CAN THE SYSTEM BETTER ENSURE 
                      QUALITY AND ACCOUNTABILITY?

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

      EXAMINING THE QUALITY AND ACCOUTABILITY OF HIGHER EDUCATION 
                        ACCREDITATION STANDARDS

                               __________

                      THURSDAY, FEBRUARY 26, 2004

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



92-438              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                      THURSDAY, FEBRUARY 26, 2003

                                                                   Page
Gregg, Hon. Judd, a U.S. Senator from the State of New Hampshire.     1
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     2
Crow, Steven D., Executive Director, The Higher Education 
  Learning Commission, North Central Association of Colleges and 
  Schools........................................................     6
Wallin, Jeffrey D., President, American Academy For Liberal 
  Education......................................................     8
Martin, Jerry L., President, American Council of Trustees and 
  Alumni.........................................................     9
Potts, Robert L., President, University of North Alabama.........    11
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee    15
Clinton, Hon. Hillary, a U.S. Senator from the State of New York.    21

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Steven D. Crow...............................................    31
    Jeffrey D. Wallin............................................    33
    Jerry L. Martin..............................................    36
    Robert L. Potts..............................................    40
    Judith Eaton, M.D............................................    42

                                 (iii)

  

 
   HIGHER EDUCATION ACCREDITATION: HOW CAN THE SYSTEM BETTER ENSURE 
                      QUALITY AND ACCOUNTABILITY?

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2004

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:57 p.m., in 
room SD-430, Dirksen Senate Office Building, Senator Gregg, 
chairman of the committee, presiding.
    Present: Senators Gregg, Alexander, Sessions, and Clinton.

                   Opening Statement of Senator Gregg

    The Chairman.  There may be other members joining us, but 
with the vote situation, I think it is important to get rolling 
since we have witnesses here and I am here. That is good enough 
for me. [Laughter.]
    Next to access and affordability, there is perhaps no 
greater issue in this reauthorization of the Higher Education 
Act than accountability. The Federal Government makes over $70 
billion available each year in the form of grants, student 
loans, and work study to help American students pay for college 
education, so it is only fair that the institutions be held 
accountable for producing quality education outcomes with this 
investment.
    To ensure accountability, the Higher Education Act requires 
that institutions wishing to participate in the Title IV 
student financial aid programs be authorized to operate in 
their State to meet certain Federal eligibility rules, and 
maintain their accreditation with an agency recognized by the 
Secretary of Education as a reliable authority concerning 
educational quality.
    This hearing will assess the role that accreditation plays 
in the accountability process. There are several issues 
involving accreditation, in my opinion. Primarily, I think we 
want to make sure that the accreditation process remains a 
process committed to excellence, and does not become overly and 
excessively involved in asserting a political agenda or an 
educational agenda which is not directed at the substance of 
creating a well-balanced educational curriculum. We are also 
concerned about issues like grade inflation, intellectual 
diversity, and the ability of the accrediting agencies to do 
their job in an honest and impartial way.
    This hearing is going to address these issues. We have 
several excellent witnesses joining us today who have spent a 
lot of time on this issue. Let me begin by introducing all four 
witnesses and then we will go to testimony.
    Our first witness will be Dr. Steven Crow, the Executive 
Director of the Higher Learning Commission of the North Central 
Association of Colleges and Schools. Dr. Crow has been with the 
Commission since 1982 and has been instrumental in making 
regional institutional accreditation responsive to e-learning, 
U.S. education delivered internationally, and new collaborative 
arrangements created in several States. He is also Co-Chairman 
of the Council of Regional Accrediting Commissions.
    Along with Dr. Crow, we have Dr. Jeffrey Wallin, President 
of the American Academy for Liberal Education. Under Dr. 
Wallin's leadership, AALE has become a leader in liberal arts 
accreditation. It has also been a strong proponent of a core 
curriculum and the assessment of student learning. Dr. Wallin 
is also a Winston Churchill scholar.
    I also welcome Dr. Jerry Martin, Chairman of the American 
Council of Trustees and Alumni, a nonprofit organization 
dedicated to academic freedom and excellence in higher 
education. From 1988 to 1995, Dr. Martin held senior positions 
at the National Endowment for the Humanities and served as 
acting Chairman in 1993. Prior to joining NEH, Dr. Martin was 
the Chairman of the Philosophy Department at the University of 
Colorado in Boulder.
    We are also joined by Dr. Potts, who I believe is going to 
be introduced by----
    Senator Sessions. I would be honored.
    The Chairman.  --Senator Sessions. [Laughter.]

                 Opening Statement of Senator Sessions

    Senator Sessions. Dr. Potts, it is great to have you with 
us. Dr. Potts is President of the University of North Alabama 
in Florence, and for 6 years prior to his appointment as 
President, he served as general counsel for the University of 
Alabama system. He served for 6 years on the U.S. Secretary of 
Education's National Advisory Committee for Institutional 
Quality and Integrity. He is a member of the commission on 
Colleges for the Southern Association of Colleges and Schools 
and is a frequent accreditation site visitor for both SACS and 
the American Bar Association's Section on Legal Education and 
Admissions to the Bar.
    President Potts is a great leader in education in Alabama. 
I have had the pleasure to visit his university and stay at his 
guest house. They are doing a terrific job in Northwest 
Alabama, and throughout the region and have had some really 
terrific graduates of that university.
    Thank you for that privilege, Mr. Chairman.
    The Chairman.  Thank you, Senator Sessions. It is always an 
honor to have a member of your constituency with us.
    Before we begin I have statements from Senators Gregg, 
Enzi, and Kennedy.
    The prepared statements of Senators Gregg, Enzi, and 
Kennedy follow:]

                  Prepared Statement of Senator Gregg

    Next to access and affordability, there is perhaps no 
greater issue in this reauthorization of the Higher Education 
Act than accountability.
    The Federal Government makes over $70 billion available 
each year in the form of grants, student loans and work-study 
to help America's students pay for a college education. 
Therefore, it is only reasonable that institutions be held 
accountable for producing quality educational outcomes with 
this investment. To ensure accountability, the Higher Education 
Act requires that institutions wishing to participate in the 
Title IV student financial assistance programs: are authorized 
to operate in their State; meet certain Federal eligibility 
rules; and are accredited by an agency that has been recognized 
by the Secretary of Education as a reliable authority 
concerning educational quality. This hearing will assess the 
role that accreditation plays in this accountability process.
    Historically, American higher education has been the envy 
of the world. Yet today, there are some serious quality issues 
that we must address if our nation's leadership in this area is 
to continue. Most importantly, we need to make sure that our 
institutions of higher education are adequately preparing 
students for the workforce. There is reason to be concerned 
about this issue. For example, numerous reports have documented 
the poor writing skills of recent college graduates and the 
problems this has created for employers.
    I am also concerned about the watered-down curricula that 
we see in much of higher education today. Many college students 
lack a solid background in such core subjects as English, 
History, Western Civilization and foreign languages because 
unfortunately, good core curriculum programs are all too rare. 
It concerns me that on many college campuses, core classes are 
being squeezed out in favor of a balkanized curriculum that 
does not provide this kind of basic, well-rounded education. 
While I do not want to see the Federal Government dictate 
college curricula, I do think it is important to shine a light 
on this issue.
    In addition to the fact that the curriculum is no longer as 
robust as it once was, grade inflation has become rampant as 
well at 4-year institutions. As larger and larger numbers of 
students achieve A's and B's, the ability of employers to make 
distinctions between students diminishes.
    Addressing these and other quality issues involves more 
than just accreditation. However, accreditation is part of the 
picture. Through this hearing, I hope we can explore the extent 
to which accreditation adds value to the accountability system, 
and whether accreditation standards really focus on academic 
quality as opposed to focusing on other agendas that have 
little to do with quality. If students are graduating from 
accredited institutions without core knowledge or the kind of 
training they need to succeed in the workforce, then one has to 
wonder whether accrediting agencies are as focused on student 
achievement and student outcomes as they need to be.
    We also need to make sure that accreditation is transparent 
to the public, so that students and parents can better 
understand not only the process of accreditation, but what that 
process reveals about the quality of institutions.
    I look forward to hearing from our panel concerning these 
issues.

                   Prepared Statement of Senator Enzi

    Mr. Chairman, thank you for holding this important hearing 
on the issue of accreditation and its role in facilitating 
higher education in this country. I am grateful to the 
witnesses for appearing today and I am particularly pleased 
that we have with us a representative of the North Central 
Association of Colleges and Schools, which accredits most of 
the institutions of higher education in Wyoming.
    Many people don't know how important the role of 
accreditors is in the higher education system. While their role 
is largely not well understood, they are critical to 
maintaining America's competitive edge by promoting high 
quality higher education. Students will also understand the 
importance of these institutions because accreditation is a 
requirement of any institution that wishes to participate in 
Title IV programs, which are better known as the Federal 
commitment to student financial aid.
    I believe there are several questions before this committee 
as we begin our work on the reauthorization of the Higher 
Education Act that will be answered through this hearing and 
the testimony of these witnesses. Among those that I feel are 
important for this committee to discuss are the role of 
accreditation for online and distance learning educators, 
quality assurance, and accountability. An issue that is 
important to me as well is the affordability of college, how 
affordability affects access, and what role accreditors might 
play in helping to address the rising cost of attending 
college.
    Speaking specifically to the point of distance learning, I 
introduced legislation last year that would permit online 
education institutions and their students to participate in 
Title IV aid programs. A key aspect of that legislation was 
building on the role of accreditors to ensure the integrity of 
these programs by creating specific criteria for these 
providers. I believe, as do many of my colleagues, that 
distance learning providers cannot simply be plugged into the 
same process as their traditional brick and mortar counterparts 
without some changes to the accreditation process. I am 
grateful that Director Crow addresses that in some detail in 
his testimony.
    I am also concerned that the accreditation process, while 
necessary for participation in Title IV programs, creates 
somewhat of a financial burden for institutions. While there 
are clear financial incentives for any institution to 
participate in Title IV programs, accreditors are the sole 
gatekeepers for institutional entry into these programs. In an 
effort to meet the requirements of accreditors, institutions of 
higher education must devote hundreds of hours of staff time to 
providing the requisite information. Often, institutions must 
also improve physical facilities or make other accommodations 
in order to become accredited. As is the case with any other 
business, these costs are passed along to the consumer, in this 
case, students. In turn, these students will borrow funds from 
the Federal Government to finance their own education and will 
pay most of the cost of the institution's effort to become 
accredited.
    This situation reveals a relatively circular cycle of costs 
that the Federal Government and students are paying. The 
Federal requirement that institutions become accredited before 
they are eligible to participate in Title IV programs has clear 
institutional costs associated with it, which are ultimately 
paid by the Federal Government through its subsidization of 
student loans and grant funding to the lowest income students.
    As the cost of attending college is becoming an issue of 
increasing importance in the minds of my constituents, I am 
hopeful that we will be able to determine how this committee, 
and the Senate generally, can address some of the cost issues 
associated with the accreditation process. I believe the 
accreditation process effectively limits Federal participation 
in an area where it is poorly equipped to fill the role of 
accreditor, in addition to providing an appropriate independent 
validation of institutional quality.
    I look forward to the issues we will discuss in this 
committee and later as we continue our work to reauthorize the 
Higher Education Act. Thank you Mr. Chairman.

                 Prepared Statement of Senator Kennedy

    I commend Chairman Gregg for convening this hearing as we 
prepare to act on the many important issues we face in 
reauthorizing the Higher Education Act.
    I also thank each of the witnesses for being here to 
discuss today's topic--the college accreditation process. It 
has always been a priority for our committee to see that all 
students have the opportunity for high quality post-secondary 
education and are an essential part of reaching that goal.
    Since 1952, when the Federal Government began to rely on 
accreditation for higher education we have used these periodic 
reauthorizations to improve the accrediting process and use it 
to solve problems. In 1992, we asked accrediting agencies to 
add numerous compliance questions to address fraud and abuse in 
student aid programs. In 1998, we turned to the accreditors to 
help us respond to the new and growing field of distance 
education.
    Now we look to the accreditors again for better ways to 
reflect the many aspects of higher education. Students of all 
ages rely on post-secondary education to improve their lives 
through learning and to gain the skills that will give them 
opportunities throughout their lives and make them better 
citizens, parents and workers.
    Higher education is a significant and continuing Federal 
investment--$69 billion in student grants and loans in 2002. It 
is also a significant and continuing investment by millions of 
students and their families, who struggle to make college a 
reality for themselves and their children, and then sacrifice 
for years to pay back their loans. We need to do all we can to 
see that our investment and their investment is reaping the 
best return possible.
    All of us on the committee look forward to your views on 
the current accrediting process and the specific improvements 
needed to give students and parents the best available 
information to make informed decisions in spending their higher 
education dollars. Thank you for your testimony on this major 
aspect of current education policy.
    The Chairman. Dr. Crow?

  STATEMENT OF STEVEN D. CROW, EXECUTIVE DIRECTOR, THE HIGHER 
LEARNING COMMISSION, NORTH CENTRAL ASSOCIATION OF COLLEGES AND 
                            SCHOOLS

    Mr. Crow. Mr. Chairman, my name is Steven Crow. I am the 
Executive Director of the Higher Learning Commission of the 
North Central Association of Colleges and Schools. My 
membership consists of 895 colleges and it also includes almost 
two dozen tribal colleges that are located in the sovereign 
nations that are within our 19-State region.
    I also serve, as you mentioned, as the Co-Chair of the 
Council of Regional Accrediting Commissions, or C-RAC. Those 
seven regional accrediting associations accredit over 3,000 
institutions enrolling approximately 16,620,000 students. All 
of our commissions are recognized by the Department of 
Education and by CHEA, the Council on Higher Education 
Accreditation.
    Most of my comments today are shaped by the legislative 
recommendations created by a majority of the agencies in C-RAC 
and distributed in recent weeks to education staff on the Hill.
    For the past 50 years, our commissions have served a unique 
quasi-public role. Their accreditation decisions on 
institutions have been accepted by the Federal Government as 
sufficient evidence of educational quality to fulfill part of 
the DOE's institutional eligibility requirements for Title IV. 
For the past 15 years in particular, we have all been engaged 
in the very unique and very American effort to create an 
effective and trustworthy partnership through which privately 
held voluntary self-regulation supports the broad public policy 
agenda for higher education as defined by the Federal 
Government.
    I have submitted a longer statement for the record. For the 
sake of brevity, I will now address briefly the primary issues 
that my regional colleagues and I understand to figure 
prominently in this reauthorization.
    First, institutional accountability for student learning. 
The Federal call for increased accountability for educational 
performance has been heard. The fact is, thanks to our 
integration over the past 15 years of student learning into our 
accrediting standards and processes, a surprisingly large 
number of our colleges and universities have lots of outcome 
data.
    While concerned about a law that would require a summary of 
educational performance in a few required standardized measures 
applied to all types of colleges and universities, we would 
support legislation that continues the expectations that 
accreditation weighs student learning and that institutions 
receiving Title IV provide public information about the 
educational performance of their students. We would council 
that an institution should be allowed to provide performance 
information fitted to its own educational objectives and using 
the variety of data it gathers to evaluate its own 
effectiveness. As recognized accrediting agencies, we are ready 
to accept within our federally defined responsibilities review 
of the data itself as well as of the effectiveness of the 
institutions' distribution of it.
    Transparency of accreditation. While anxious to protect the 
zone of privacy important to our efforts to stimulate and 
support educational institutional improvement through 
accreditation, we are ready to create for the public stronger 
programs of disclosure about accreditation processes, 
accreditation actions, and the findings related to those 
actions. We strongly urge that the template for public 
disclosure, however, not be defined in law, allowing important 
conversations within the accrediting community to create 
effective and appropriate models for that disclosure.
    Student mobility and transfer of credit. We know that 
transfer of credit is a matter of public concern. In recent 
years, we have all endorsed the CHEA principles on transfer 
adopted in November 2000. They mark a new consensus on good 
practice in transfer, including an expectation that transfer 
decisions not be based solely on the source of accreditation.
    While my colleagues and I caution against any wording in 
this reauthorization that could be used to allow the Department 
to regulate this key component of institutional academic 
integrity, we would support legislation that captures the 
spirit of the CHEA principles and we are ready to include in 
our review processes greater attention to our institutions' 
transfer policies and practices than we have in the past.
    I would be remiss if I did not caution against adding 
significant new institutional recordkeeping and reporting 
requirements on all of this.
    And last, distance education and e-learning. Each regional 
commission believes that it has been doing an effective job of 
evaluating distance education generally and e-learning 
specifically. Legislation that classifies all e-learning as 
distance education and then calls for different regulation of 
it will inadvertently require special evaluation of what many 
institutions and their campus-based students now view to be 
little more than a scheduling option.
    While we take no stand on the 50-50 rule, we do not believe 
that the price for its abolition should be the enhanced 
scrutiny of all distance education, no matter the institutional 
context.
    We have been reviewed by the Department to approve e-
learning over the past 5 years and all of us have actually been 
reviewing it and including it in our accreditation for many 
years before that. We do stand ready to demonstrate anew how 
our existing standards apply to e-learning, we stand ready to 
document the training we provide to assure that our reviews of 
e-learning are sound, and we stand ready to review periodically 
the management capacity of institutions with rapidly expanding 
online offerings and/or with rapidly growing numbers of 
students served by them.
    Mr. Chairman, thank you very much for the opportunity to 
testify. I look forward to hearing from my fellow panelists and 
then responding to whatever questions you may have.
    The Chairman.  Thank you, Dr. Crow, especially for those 
specific thoughts.
    [The prepared statement of Mr. Crow may be found in 
additional material.]
    The Chairman.  Dr. Wallin?

STATEMENT OF JEFFREY D. WALLIN, PRESIDENT, AMERICAN ACADEMY FOR 
                       LIBERAL EDUCATION

    Mr. Wallin. Thank you very much, Senator, for having me 
here today to share my thoughts on how accreditation can better 
ensure quality and accountability, and for accountability and 
quality I am going to speak of learning outcomes, since that 
seems to be the method by which we seek to improve over the 
resource discussions when it comes to accreditation.
    It seems to me that we should begin with a very simple 
question. Do we have a problem? And I would say, yes, we do. 
Higher education in this country is on the road to becoming 
ubiquitous, while not, I hope, uniform, and therein lies the 
danger.
    This is in large part due to the admirable efforts of many 
at the State and national levels to increase access to 
nontraditional student populations. However, in the last couple 
of decades, serious questions have been raised about whether 
the quality of higher education has kept pace with its growth 
in size and expense. Report after report confirms that higher 
education, even a degree in it, is no longer a guarantee of the 
skills and general knowledge that Americans have come to expect 
from higher education.
    We seem to be reaching a point that Winston Churchill 
thought had arrived a full generation ago, namely that 
education is at once universal and superficial. It is our duty 
and our responsibility to do what we can to preserve this 
newly-won access while resisting superficiality and a reduction 
in quality.
    The American Academy for Liberal Education was established, 
in part, to strengthen general and liberal learning by 
establishing substantive academic accreditation standards, such 
as foreign languages, mathematics, history, philosophy, and 
science and so on. We believe in this system, but it is a 
system of inputs, and, of course, at some point you have to 
come to a system of judging whether it is working.
    Learning assessment has grown very rapidly over the last 
few years. In my opinion, it has done quite a bit of good. From 
the standpoint of AALE, for example, we see that many faculties 
are being forced to reconsider the issue of a core curriculum 
and what has been lost by abandoning them over the last 30 or 
40 years. Once you have to ask the question of what is it that 
you expect out of education, quite often what you are led back 
to is the proper means for supplying it, and that is all to the 
good.
    However, we believe that there is a significant danger in 
pushing this too far, or rather, I should say more explicitly, 
pushing it too far with the wrong means. We do not want 
assessment to replace education. There is an old Midwestern 
saying, you don't fatten the hog by weighing it.
    Now, it seems to me that the problem is that regional 
accreditation is doing about as much as can be done along these 
lines without forcing a kind of uniformity among colleges and 
universities throughout this country that none of us want. Is 
that to say that it can't be done? No, not at all. We have 
models of assessment of the sort I think people are interested 
in.
    Take a look at the specialized accreditors. I haven't heard 
anybody complaining that a student with a biology degree 
doesn't know any biology, or that the engineers can't build 
bridges. The specialized accreditors realize what it is they 
want to produce and the experts in their field are the ones who 
assess the learning in it and it works pretty well. It is hard 
to do, though, when you have a general education curriculum, 
especially when it is no longer a specific core but it can be a 
smorgasbord of courses.
    I have attached a paper to my remarks from Milton 
Greenberg, who argued that maybe what we need to do is one of 
two things. Either hold the specialists accountable for the 
fact that they require that their students take general 
education but they rely upon the quality of that education to 
be taken care of by the regionals and they are not set up to do 
that, not with, what, just 800 institutions or so. They don't 
want to impose that kind of uniformity, nor should they.
    Another possibility would be to have sector-specific 
accreditation. That is to say, you might have an accreditor for 
regional universities, research universities, liberal arts, and 
so on. Of course, that is one thing we do is the liberal arts. 
But what you would do is take assessment and put it somewhere 
where it has a long tradition of being successful, as it is, 
say, in the arts and in music. That might be a possibility, but 
it would require quite a change.
    In any event, though, one might think at some point, if the 
system is not built to do this, maybe we had better at least 
think about building a system that is designed to do it, for 
that is the only way I think we are going to get the kind of 
assessment that the American public wants, one that deals with 
qualitative, substantive differences between colleges and 
universities.
    Thank you very much.
    The Chairman.  Thank you.
    [The prepared statement of Mr. Wallin may be found in 
additional material.]
    The Chairman.  Dr. Martin?

 STATEMENT OF JERRY L. MARTIN, PRESIDENT, AMERICAN COUNCIL OF 
                      TRUSTEES AND ALUMNI

    Mr. Martin. I think we have to begin by recognizing the 
extraordinary power accreditors have. They are private 
organizations, but Congress has made them the gatekeepers of 
billions of dollars of Federal funds, including student loan 
funds without which colleges cannot survive. The rationale, of 
course, is that they are there to ensure quality. The question 
is, have they been successful in that?
    Unfortunately, our study shows that the answer is no. There 
is considerable evidence of serious decay in quality at many 
institutions despite the fact that almost every college and 
university is accredited. Colleges and universities that were 
allowing academic standards to slide nevertheless sailed 
through their reaccreditation visits. How is that possible?
    Well, the surprising fact is that the standards for 
accreditation have little to do with teaching and learning. As 
every expert who has looked at this notes, accrediting 
standards emphasize inputs and procedures, not educational 
quality and student learning. As a result, the accreditor's 
guarantee is no guarantee at all.
    Take grade inflation, for example. Studies show that under 
the accreditors' watch, grade inflation has gotten worse, not 
better. The Duke University researcher who monitors this issue 
says the rise has continued unabated at virtually every school 
for which data are available. And yet not a single case has 
been reported of a school being sanctioned by accreditors for 
runaway grade inflation.
    Another of the most important quality indicators for a 
college is its general education requirements. What are the 
courses required for all students to graduate? One study found 
that in the last 50 years, there has been a decline in general 
education requirements in every subject--English, history, 
math, science, foreign languages, philosophy, the arts, even 
PE.
    If we judge accreditors on their performance, it is a 
record of persistent failure. If meat inspections were as loose 
as college accreditation, we would all have ``mad cow'' 
disease.
    So what is the solution? Well, since accreditors are not 
successful in ensuring quality, their power over Federal funds 
is not justified. A simpler, less costly procedure could be set 
up within the U.S. Department of Education to certify quality 
institutions--qualified institutions, and that should be 
sufficient to weed out institutions that are colleges in name 
only.
    For raising educational quality, two more effective sources 
of accountability are available. First, college and university 
trustees are appointed to represent the public interest. They 
are becoming increasingly active and expert in overseeing 
quality, and if we have time in the discussion I could give you 
some dramatic examples where college trustees have strengthened 
core curricula and raised academic standards, none of those 
changes having resulted from accreditors' recommendations.
    Second, State higher education agencies are embarked on 
what has been called an accountability revolution. They are 
framing performance measures that look at educational results, 
not just inputs. Again, I could give you some dramatic concrete 
examples from States around the country.
    The problem is that the accreditors function as de facto 
cartels. Monopolies are not good at self-correction. 
Competition is the best medicine.
    Two promising alternatives can provide much-needed 
competition. First, though, why not encourage more accreditors? 
The American Academy for Liberal Education is a perfect example 
of an accreditor dedicated to setting very high standards in 
the liberal arts.
    Second, Congress should consider Senator Hank Brown's 
suggestion. Senator Brown became a college president after 
leaving the Senate and reported that although the accreditors 
did not ask what students were learning, he said one agency 
did, namely the State Commission on Higher Education. Well, 
Congress should consider his suggestion, which is that the 
States might be allowed to accredit colleges and universities 
on a purely voluntary basis if they so choose. Originally, the 
Higher Education Act did allow States that option and one State 
has done so in a couple of areas. But since 1991, this 
opportunity has been denied to other States. We believe this is 
an option worth exploring.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you, Dr. Martin.
    [The prepared statement of Mr. Martin may be found in 
additional material.]
    The Chairman.  Dr. Potts?

 STATEMENT OF ROBERT L. POTTS, PRESIDENT, UNIVERSITY OF NORTH 
                            ALABAMA

    Mr. Potts. Mr. Chairman, members of the committee, ladies 
and gentlemen, I want to thank you for the invitation to be 
here today. I am here representing the American Association of 
State Colleges and Universities, on whose board I serve. We 
represent 425 public colleges and universities and university 
systems around the country, about 3.5 million students, and 
more than half of the students in the four-year institutions in 
the country.
    I personally have been on the ground with accreditation and 
also spent 6 years on the committee that is set up to oversee 
the accrediting agencies, and during that period of time got to 
see most of the 100 or so accrediting agencies that are 
certified on the Secretary's approved list, and we had hearings 
twice a year, 3 days at a time, where people could come in and 
make complaints, make comments as these agencies would come up.
    What I just heard described does not accord with what I saw 
during my service on that committee, nor what I see on the 
ground as I lead accrediting teams for a couple of different 
organizations. I am taking a team, for example, to Murray State 
University week after next to do this. What I see is that the 
present system is working quite well. The 52-year-old 
partnership between the voluntary accrediting associations, be 
they the regional associations, the national associations like 
Dr. Wallin's association, or the specialized associations that 
accredit just in a specific field. They are doing a pretty good 
job under the current system.
    I do not think that wholesale changes and particularly 
delinking student financial aid and the accrediting system 
would be a good thing. You have hundreds and thousands of 
volunteers like myself out in the field every year paying 
attention to issues of quality at institutions. We frequently 
serve as unpaid consultants to suggest best practices. You 
better believe that we will blow the whistle if we see 
something that we think is not academically sound in these 
institutions.
    You think of the institutions, for example, in your home 
State and you ask yourself--I know Senator Alexander was the 
President of the University of Tennessee--if these descriptions 
of the lack of quality are there. I don't think that is true, 
and I think the accrediting agencies have been doing a fine 
job.
    Now, can a complex system like this be improved? Of course 
it can. We at AASCU have a few suggestions. We basically 
subscribe to the suggestions that Dr. Crow and the regional 
accreditors have made with some minor changes in the Act.
    But I ask you, in considering these changes, not to upset 
the delicate balance that has existed for 52 years with some 
slight changes between the private accrediting agencies and the 
Federal Government with the States and the institutions playing 
vital roles in it because it has worked well.
    Our system of higher education here in this country is the 
envy of the world. Our institution recently established a 
relationship with a company in Japan and we are getting large 
numbers of Japanese students that come and enroll in our 
institution. I can tell you that all over the world, people 
admire this system, and one of the great aspects of it has been 
private accreditation that first began in New England in 1895 
and then became a part, or partnership with the Federal 
Government in 1952.
    So we want to just say in summary, and I would like to 
submit, of course, my written testimony, I can give you example 
after example where I have been out on the campuses and 
improvements have been made. I cite one example of where one 
institution got 100 recommendations on a visit from a regional 
accreditor because of some program problems they had. The next 
time they came, they got less than ten and it was uniform 
improvement because of this process.
    There is more focus now on student learning and 
development. The Southern Association, on whose commission I 
sit, for example, has just adopted a new set of democratically 
developed criteria called the principles, and one of the things 
in that is we require as a part of the accreditation process a 
quality enhancement plan for student learning that the 
institutions submit. So you are seeing more and more outcome 
assessments through institutional effectiveness and other 
things that we have hard criticism such as has been made before 
and we certainly strive to increase that.
    But let me say last, in conclusion, that AASCU's position 
on this is that there should be some targeted improvements 
during reauthorization, but a wholesale change in the system 
would be very detrimental and there would be nothing short of 
extreme expense and some sort of ministry of education that you 
could have to supplement what is being done by volunteers 
today. Thank you very much.
    The Chairman.  Thank you.
    [The prepared statement of Mr. Potts may be found in 
additional material.]
    The Chairman.  I thank the panel for the excellent 
presentation. I sense that there is a slight difference of 
opinion--[Laughter.]--so I thought maybe I would let--Dr. 
Potts, I thought you made an excellent presentation of why we 
shouldn't fundamentally change the system, and Dr. Martin made 
a suggestion that we should change it more fundamentally, Dr. 
Wallin a little in between, and then Dr. Crow, yours was more 
of an objective overview.
    Could you respond, Dr. Martin, to Dr. Potts' thoughts, and 
then we will give everybody a chance to respond back and forth, 
because I think you got to the essence of the issue, which is 
how much change is necessary in order to get better 
accountability and make sure that kids are getting what they 
paid for, which is an education.
    Mr. Martin. Well, we seem to disagree on what should be 
done, but I did not hear any counter evidence. I did not hear 
the argument made that there is no problem with grade inflation 
or that curricular requirements have strengthened rather than 
weakened. At one point, the Association of American Colleges 
did a report that summed up the situation on the college 
curriculum today by citing the lyrics of Cole Porter, in which 
the only thing adequate is a summary. ``Anything goes.'' I 
don't hear any rebuttal.
    Employers regularly report these days--you can quote one 
CEO after another that even the college graduates can't write. 
As one reported they can do the technicals, but they can't 
write the report. These are just--you know, we talked about a 
diversity of institutions, but I don't know any field or type 
of institution in which a student's ability to write an English 
sentence and express himself or herself is not important.
    So I don't hear any challenge to the basic facts of 
deterioration. The burden of proof is on the accreditors. Well, 
where they are not doing the job, I think we need to find a way 
to fix the system so that the job gets done.
    The Chairman.  Dr. Crow, Dr. Wallin, and then we will get 
Dr. Potts to come back for rebuttal.
    Mr. Crow. I would basically argue that I don't find 
convincing what has been put forward as the evidence for 
decline in quality. There is a lot of anecdotal talk. There is 
also much anecdotal talk about how good the graduates are and 
how well prepared they are. So I think the idea that somewhere 
there is a uniform, agreed upon understanding that American 
higher education has experienced a State of decline overseen by 
its friendly accrediting agencies is essentially bogus. I don't 
see evidence to support it. I see evidence of various reports 
that are put together to do this, to try to justify this claim.
    I think it is fair that there is a big discussion going on 
between the Academy and the public at large about the fit 
between higher education and the needs of society, and I think 
that we are going to see increasingly over the next five to 10 
years much more dialogue between the higher education community 
and the people who use the graduates of that higher education 
about what needs to be done to make sure that higher education 
is relevant and is useful.
    And I will say in our latest review of our own accrediting 
standards, and we just adopted a new set, we, in fact, embed 
that kind of dialogue and discussion within our accrediting 
standards.
    The Chairman.  Dr. Wallin?
    Mr. Wallin. Yes. Well, I think that Dr. Crow put his finger 
on a fundamental difference, and that is whether--not only 
whether the system of accreditation is working, but whether, 
overall, the system of higher education is working. It seems to 
me that when you hear a statement that broad one way or the 
other, one should always ask, in what respect, and the same 
should be asked of the sentiment that United States education 
is the envy of the world, because it is. There is no place that 
offers better education, certainly in graduate school, and very 
few places that can match us when it comes to our professions 
and specialized training. That is true.
    The question we have been raising today, though, is what 
about the fact that--and it is not just anecdotal, there are 
studies showing this--that it seems to be the case that lawyers 
and doctors and others keep telling us that they don't 
understand why they are getting candidates for positions out of 
the top schools and they can't write a paragraph well. I mean, 
it is a failing. I can't see how you can get around it, and I 
know that I hire plenty of young students from top-notch 
liberal arts colleges and I make them take a test, not an exam, 
but just make them write an article or something and it is 
pretty bad. Things have gotten to the point where a high school 
degree doesn't mean a great deal anymore.
    Now, by the way, I am leaving aside the most elite 
colleges, which you usually have to go to a private school to 
get into anyway, and that is not where the problem is. The 
problem is that we now have something like seven or so out of 
every ten high school students going to college. If they are 
going to go to college, they need to learn because they may get 
their first job by having that degree, but they won't keep it 
if they don't have the necessary skills. It seems to me that it 
is unanswerable, the charge that not enough of them have those 
skills.
    Now, as to how to fix it, I am differing with Dr. Martin a 
bit on this because, first of all, I think regional 
accreditation does a good job of what it is intended to do. It 
is essentially resource oriented. It assures the reliability of 
processes, resources of educational institutions, and weeds out 
diploma mills, and I have seen several instances where it does 
some good in strengthening the institution.
    It is just that what has happened in the last, I don't 
know, ten, 20 years, is the focus has turned on learning 
outcomes and that is not where the strength of these 
institutions is, I mean the accrediting institutions. So I 
would again suggest that we need to find a way, if you want to 
have this kind of information, real, solid information, none of 
which, by the way, comes out of the current assessment 
approach, even though I would argue it is a good thing, nowhere 
that I am aware of in any of the regions will you come out with 
a specific answer to the question of whether students who are 
walking out with a four-year degree actually know anything 
about mathematics or history or literature or anything else.
    Now, our standards are explicit about it, but other than 
that, learning assessment is starting to turn into a process 
whereby you have thick portfolios and all manner of other 
things but you never get anything that would threaten any 
faculty member or any school by saying, ``I am sorry, you are 
not performing.'' That, we don't have, and we can either say we 
don't need it, it is a free country, there are lots of 
institutions, let them compete, or if we are going to say, let 
us do something about it, I think you are going to have to 
change the system.
    The Chairman.  Dr. Potts, we are going to have a vote here 
in a minute, but if you have a couple of points.
    Mr. Potts. A couple of points. These broad-based statements 
about what higher education is, and I can give you specific 
examples, and I don't have time here in the hearing, there is 
tremendous competition among institutions of higher education. 
The American system has such a great diversity of institutions, 
from the two-year college to the elite Harvard Universities and 
Yales and whatever, and the students----
    The Chairman.  But in this committee, we talk about 
Dartmouth. [Laughter.]
    Mr. Potts. The students vote with their feet. I think you 
will find many institutions have strong programs that train and 
equip students to compete in this society that we have and this 
is not the place to try to fix the ills of society with this 
type of reauthorization. What we have with the current higher 
education law and in this area of accreditation is working 
quite well.
    The Chairman.  Senator Alexander?

                 Opening Statement of Senator Alexander

    Senator Alexander. I just have great sympathy for 
presidents of universities, having been one. But let me thank 
the chairman for having this hearing and thank each of you for 
coming. This is a very useful discussion and the differences of 
opinion are important to me. I am going to ask a question in a 
minute about what would be the most appropriate way to 
encourage more accreditors, basically take the system we have 
now but have less of a monopoly. This is the decision I came to 
in 1992 when I went through some things with accreditation. So 
that will be my question in a minute, but first, let me make a 
couple of comments, if I may.
    I arrived at the United States Department of Education in 
1991 as Secretary with a chip on my shoulder about accrediting 
agencies and it really hasn't gone away. One, I had been a 
university president and I got tired of people coming in and 
telling me I had to spend $40 million on a law school when I 
thought I was president of the university and I would rather 
spend it on this or that or this core curriculum or that 
teacher.
    Second, when I got to the Department, I was really offended 
by the Middle States Accrediting Agency, which had just adopted 
in its bylaws, and gave itself the authority to tell trustees 
and presidents what their diversity standards ought to be on 
each campus. I thought it was absolutely none of their business 
and told them so. And in effect, during a hearing, I tried to 
see if I as the Secretary could disaccredit the accreditors for 
going far beyond where I thought they ought to be. It was a 
learning process for me, and maybe for them because they 
dropped that a year later.
    So I arrived with that sort of bias I would like to see if 
there are ways that we can encourage accrediting agencies 
affiliated with the Department of Education scholarships to 
stick to academics and don't impose their political judgments 
or politically correct judgments on different colleges. For 
example, Middle States wanted to tell Westminster, which is a 
Calvinist college which didn't ordain women, that they had to 
have a woman on their board. Well, that is not diversity. 
Diversity would be allowing Westminster to come to its own 
conclusions about its religious beliefs.
    And it told Baruch College that 18 percent minority faculty 
wasn't enough. The United States Constitution and numerous 
Federal laws establish criteria for that and the president and 
the board members of Baruch College have responsibility for 
that. So I start out that way, but let me go the other 
direction now.
    I am very wary of any proposal from the Federal Government 
that restricts the autonomy of American colleges and 
universities. I asked David Gardner one time, the President of 
the University of California, why they were good, and he said 
three things. One, autonomy. When they created the University 
of California, it was a fourth branch of government. They 
basically gave us the money without many restrictions. Second, 
excellence. We were lucky enough when we started to have a 
dedicated core of excellent faculty and we have tried to keep 
it that way. And third, a lot of Federal money and some State 
money that follows students to the school of their choice, and 
that model has worked extraordinarily well in American higher 
education and I would like to see us adopt it in K through 12 
education, which is a different subject.
    So we pay a price for the autonomy and the choices that we 
allow in higher education. In the prices at the fringe, we get 
some lousy tenured teachers, some weird courses, some things we 
wouldn't do if we were sitting up here in Washington and 
deciding what to do.
    One other thing before I ask my question. I was in a small 
group of Senators with former President Cardoso of Brazil the 
other day and Senator Hutchinson of Texas asked him what of his 
several months at the Library of Congress would he take back 
with him to the people of Brazil? What most impressed him about 
the United States of America? He said, ``The autonomy of the 
modern American university,'' he said. ``I have been all over 
the world. No other country has it.''
    I completely agree that we have far and away the finest 
system of colleges and universities. We have a market system 
that attracts foreign students, local students. This is the 
season when parents and students are all falling all over 
themselves to get admitted to colleges and universities. Grade 
inflation exists lots of places, but the cure is not with the 
accrediting agencies, it is with the presidents and the board 
members of those institutions. They have grade inflation at 
Harvard, but that doesn't make Harvard a bad university.
    The Federal law says that what we are trying to do here is 
to make sure that an institution is of sufficient quality to 
receive Federal aid. The Federal Government is not trying to 
make Maryville College X amount. It is just trying to make sure 
Maryville College is of sufficient quality to receive Federal 
aid. We have latched onto the accrediting agencies because 
helps preserve the autonomy of the American university.
    Now, how can we make sure we are not wasting Federal money? 
I think by creating some more competition, and I would like to 
start with Mr. Wallin. How can we encourage there to be more 
people who do what you do? I am very wary of the States. I was 
Governor. I was also Chairman of the Board of the University of 
Tennessee. Am I going to unaccredit the university myself? 
[Laughter.]
    I also appropriate money. I also appoint all the board 
members. I also go to the football games. There would be lots 
of questions about States taking over this role, but who else 
could is my question. Who else could?
    Mr. Wallin. Senator, let me approach it a slightly 
different way, if I may. First of all, I would agree with you 
about the States. I am a political scientist and I remember we 
used to describe State legislatures as good sausage-making 
institutions. You just wait outside and you see what the 
product is, not the donnybrook inside. I have never been 
convinced, though I am a proponent of federalism, that every 
State legislature in the 50 States is always wiser than the 
government.
    But as to how to encourage competition, well, again, let us 
ask the question of why isn't there any? There isn't any 
because the system was set up not to be monopolies but because 
regions have certain interests and if you have regions, then 
there is going to be a monopoly simple de facto. That is what 
happened.
    Senator Alexander. If I may interrupt, it was set up 
originally as a self-help mechanisms, colleges to help 
themselves get better. No one imagined at that time that we 
would be spending $17 billion in grants and $50 billion in 
loans with these agencies having the hammer over them.
    Mr. Wallin. Right. No, that is true, and originally they 
had to deal with questions such as, is this a high school or 
college? So it was a quality question.
    But the problem is, when you get to a situation like we 
have now where you have, say, 800 or 900 colleges and 
universities covered in a region, you have to ask yourself, 
what possible educational standard could you require of all of 
them? What is it?
    Let us take the Southern, SACS. SACS doesn't have a 
requirement requiring, say, foreign languages, history, 
literature, mathematics, science, not at all. How could it? I 
mean, do you really think that all of the members would agree 
to that?
    My point about the regionals is that I think they do a 
great job of certain things, but they are not constructed in 
such a way as to be able to do what everybody wants them to do 
now. And so as far as freeing the system up a bit, I was going 
to speak about that in my prepared remarks and I ran out of 
time. A couple of things.
    One easy thing to do is to get rid of the restrictions on 
transfer of credit which exist according to an older age, as it 
were. If you look at the number of States and colleges and 
universities, you will see in their requirements that they will 
accept a grade or a degree only from a regionally accredited 
association. The reason was that there wasn't anything else 
then. Regional meant accreditation, national accreditation, 
institutional. And so that is an anomaly that needs to be 
changed. Schools, States, they should be able to accept 
whatever they want, and if they are going to use accreditation, 
a specific kind of accreditation, they can do that, too, but 
they should give an argument for it and not just count on it.
    Second, there is one other thing you could do, but I just 
don't see any chance of it being done, and I am not sure it 
would work anyway, and that is if the Secretary of Education 
were to say, well, I want everybody to start out on a level 
playing field, so 3 years from now, all the colleges and 
universities in this country are going to be unaccredited and 
we are going to give them so long to find what they want to do 
and get together with research universities or liberal arts, 
whatever it may want to do.
    Now, my guess is that even that, and that is a pretty 
extreme measure, even that wouldn't work, because after all, 
part of what we are dealing with is a tradition of 
associationship with the regionals. The real problem, I think, 
is that you cannot ask from something that which it cannot 
give. So you are really left with this choice.
    First of all, there should be more accrediting agencies, 
and I am all for that. But fundamentally, do we want to try to 
get from the regionals the kind of information the public and I 
think Congress wants, which is the kind of information that 
would replace U.S. News and World Report and all of those 
things, or do we want to admit that that is going up the wrong 
tree because that mechanism can't do it without sacrificing one 
thing that I know that every single person here wants, and that 
is the autonomy of the individual institutions.
    That is why I suggested trying to go to a different 
mechanism, but I really do not see a way except just getting 
more and more heavy-handed. Let me look at the legislation, by 
the way, if I may, just read one sentence of the current 
legislation----
    The Chairman.  Doctor, we may have to move on to another 
question. I apologize. I know that Senator Sessions and Senator 
Clinton both wanted to get questions in here, and we are going 
to get a vote in a minute and they are going to have to leave. 
So if you don't mind, maybe we could reserve that and go to 
Senator Sessions for five minutes and then Senator Clinton for 
five minutes and then hopefully we will still have some time to 
come back to it.
    Senator Sessions. Thank you, Mr. Chairman. I find this 
very, very interesting. I have had several experiences that 
have affected me regarding accrediting agencies. I am on the 
Board of Trustees at my alma mater, Huntington College in 
Montgomery. It is a small liberal arts Methodist college, and I 
was on their long-range planning committee which was driven by 
SACS review, which was good, I thought.
    In my understanding of it, there was a clear feeling that 
if they deemphasized the historical religious connection, they 
would probably come out better in this review, and in fact, 
proposals were made to do that and over the years that has 
occurred. In fact, some of the core curriculum required the Old 
and New Testament and two semesters of religion and philosophy, 
12 hours. It has been eroded. I didn't like that.
    I attended the University of Alabama School of Law. The 
dean there had been a JAG officer, and at one point in my 
career as an Army Reservist, he supervised me. I learned when I 
became Attorney General that the University of Alabama's 
accreditation was being threatened because the accrediting 
agency said the university could not allow JAG officers to 
recruit students on campus because the accrediting agency did 
not agree with the Clinton administration's policy on gays in 
the military, the ``don't ask, don't tell'' policy. They 
considered that discriminatory, and that the military was, 
therefore discriminatory, and JAG officers could not come on 
campus. The faculty voted in compliance with that decision. I 
offered and encouraged the State legislature to pass 
legislation to say the military could recruit on campus, and 
they were allowed to do so after the legislature passed a law 
that said they could, so the accrediting agency backed down 
from that. However, the original decision did not sit well with 
me.
    Auburn University, I have been a critic of their board and 
how they have handled things, but they have had an aggressive 
board that has shown leadership, whether you agree with it or 
not. Auburn University is--this is their information, but it 
is, I think, true, ``the best producer of chief executive 
officers for the Nation's best small companies than any other 
college or university in the South,'' according to a Forbes 
survey. They are the top public education institution in the 
State and among the top in the Nation for educational value, 
according to Money and Kiplinger's Personal Finance. Now, Mr. 
Potts wouldn't agree with that, I am sure, because he has 
another great university. [Laughter.]
    They are ranked in the top 50 institutions in the Nation 
for providing a quality education with educational value, from 
the United States News and World Report. One of the top five 
universities nationally for producing NASA scientists and 
astronauts. Auburn's students are accepted into medical school 
at 30 percent higher than the national average, and on and on.
    Well, clearly, it is one of the country's great 
universities and there was a fuss over the football team and 
the board of trustees getting involved in that and embarrassing 
the university and the president embarrassing the university 
and their magnificent alumni association and everybody is upset 
about it, and lo and behold, because of that, apparently they 
are on probation, a great national university. Now, we have 
other universities all over this country that are not nearly as 
capable in turning out students with excellence educations.
    Dr. Martin, I saw you nod there. Am I missing something 
here?
    Mr. Martin. I think you are right on target, Senator. If 
you look at--of course, these reports are secret, which 
actually is one of the problems in this. Accreditation is in 
some ways the dark hole of higher education, so people try to 
figure out what is actually going on. But when there is a 
conflict, it tends to be reported in the press and the 
Chronicle of Higher Education particularly.
    We looked over the last 10 years to see where there is an 
issue, a school's accreditation is being threatened, is it on 
grounds of educational quality, and I have to tell you, we 
didn't find a single one. Usually, financial instability, 
mismanagement, that type of thing, small sort of failing 
colleges, colleges that, in effect, the market has already 
rejected and that is why it is failing.
    The others, there were just a handful of others. One was on 
the University of North Dakota. The big issue was the American 
Indian used in their logo. The accreditors wanted them to use 
that. One that came to light, the president of Tulane said that 
because of the accreditors, he was going to have to--50 percent 
of all new faculty hires for the next several years would have 
to be minorities, exempting the medical school from that.
    In another case, the accreditors told a college to actually 
alter its mission, which is a very strange thing for 
accreditors to do, and here is the actual statement. The 
college mission and vision and department goals and objectives 
should be developed around global concepts of race, class, and 
gender. Why is that what accreditors get to say?
    And another was the Auburn case, where the, as the 
Chronicle reported, the issue was the board's micromanagement 
of the athletic program and the Chronicle said no educational 
issues were involved. So you wonder, is that what Congress 
intended when it gave these accreditors life or death power 
over the institutions?
    Senator Sessions. Dr. Potts, I would be interested in your 
comments on this, also.
    Mr. Potts. I am on the Commission on Colleges, as I 
mentioned, for the Southern Association, so I was recused with 
all the Auburn discussions and none of this is based on 
anything coming from inside SACS. I want to make that clear.
    But what happened, in fact, was, and all of you are 
familiar with the requirements we now have in Sarbanes-Oxley 
and other things, the Southern Association has a standard with 
regard to how governance of an institution should be. There 
were numerous complaints filed with SACS for complaining about 
what was going on with Auburn, including, and these are friends 
of mine, a lot of them, but that there were conflicts of 
interest, that there was self-dealing and everything. Auburn 
then goes and preempts the process by filing suit and literally 
hundreds of thousands of dollars were spent.
    Probably SACS has never been in higher esteem in the State 
of Alabama than it is now. The president resigned over this, or 
did resign, the existing president. The new president, who is 
the former State Superintendent of Education, just had a 
meeting with SACS. It went very well, it was reported in the 
press. And what we have is getting back with Auburn doing the 
same thing that every other institution is, and to me, that is 
an example of accreditation working well.
    And I think you will see that what comes from this, and 
again, speaking from just the reports, that you will have an 
improved governance process in Auburn University because of 
this. And I agree, they are a very fine university and this 
didn't involve academics. But under the current law, under the 
law, finance and administrative capacity and administration and 
those sorts of things have to be looked at by accrediting 
agencies.
    So I think that you can always find extreme examples, but 
if you look at the overall situation, you are going to find it 
well to get back to Senator Alexander's question. You can tweak 
this if you want to about political correctness if that is an 
issue. You could give the authority to the Secretary to have 
hearings and go through the rulemaking and make regulations on 
a specific, narrowly-targeted area. But my suggestion is, 
before you react to some extreme examples, make sure you 
realize that, overall, this process is working well----
    Senator Sessions. I don't dispute----
    Mr. Potts. --but it needs to be tweaked.
    Senator Sessions. I don't dispute that. A lot of these 
reviews produce good results. I think it is healthy for a 
university to be required to evaluate their long-range goals 
and make decisions about them, but I find it odd that one of 
the great universities in America finds itself on probation 
over a dispute over the football coach or how the program is 
administered. I really care about Auburn. I want it to be 
successful. I think Dr. Richardson, the new president, is first 
rate. I have admired him for many, many years, and maybe some 
good things will come out of this.
    But I don't think that is the principle, Dr. Potts. It is 
not the utilitarian question of whether or not this may have 
made a positive difference in Auburn at the time. It is a 
question of whether this university that is producing quality 
students with great graduate records, whether or not they ought 
to be the one in Alabama on probation.
    Mr. Potts. I guess we don't know enough about the facts 
underlying that. I think there was a coincidence in the timing 
of the situation involving the football program and this other 
has been going on for many months, so----
    Senator Sessions. I don't know the details, either, and I 
appreciate that. I do think that it is healthy to have the 
oversight, but I think we need to focus more on academic 
quality.
    The Chairman.  Senator Clinton?

                  Opening Statement of Senator Clinton

    Senator Clinton. Thank you very much, Mr. Chairman, and I 
thank our panelists for being here. On behalf of Senator 
Kennedy, who wanted to be here, I wanted to State for the 
record he is very regretful that business has kept him on the 
floor of the Senate because he is deeply interested in these 
issues.
    I really appreciate what my colleague, Senator Alexander, 
said because I think he rightly summed up the tension that this 
discussion represents. I come down very strongly where he does, 
which is that the autonomy and independence of our higher 
education system is a precious asset for this country and the 
last thing in the world we need is to be looking to set 
government standards of political correctness or incorrectness, 
nor do we need the government overseeing the assessment of 
these institutions.
    I think that any human enterprise is going to be subject to 
mistakes, flaws, and aberrational examples of not having 
fulfilled its highest aspirations. But having been both on the 
outside and inside of accreditation processes for a number of 
years, I think on balance it has not only served the 
institutions well, it has served our country well, and I would 
hope that we wouldn't be chasing after the aberrational and the 
extreme and upsetting the general and the positive work that 
has been done in what really amounts to a remarkable public-
private partnership.
    I also am one who believes that there is probably a lot 
more ``mad cow'' around than there are bad colleges. Less than 
one-tenth of one percent of our cows are inspected for mad cow 
disease. We have cows falling down. We have cows going to 
slaughterhouses who shouldn't be getting into the meat supply. 
And so far as I know, at least in New York, every single 
college is reviewed in the accreditation process. Maybe it is 
not perfect, but it gives me, frankly more personal ease than 
what we are currently doing in our meat inspection system.
    One of the concerns I have is that given the diversity of 
our higher education system, which again I think is one of the 
great benefits--I held a meeting last week in Buffalo with 
public, private, and religious colleges and universities, two- 
and four-year liberal arts and research institutions, to ask 
them what they thought about this debate. And around that table 
were very small religious colleges and very large State 
universities. To a person, they expressed great concern about 
what they had heard coming out of Washington about the idea 
that somehow they would have to take college credits from 
institutions that they thought were either not accredited 
appropriately or whom they disagreed with.
    I had the president of a small Catholic college tell me 
that they make a special point of teaching courses from a 
faith-based perspective and she did not want to be having to 
grant a transfer credit for a secular history course that was 
not aligned with her college's standards.
    The large universities that I have spoken with in New York 
are deeply concerned that somehow after developing very 
thorough processes that have led to articulation agreements, 
that somehow that would be abbreviated or even eliminated as 
opposed to leaving it within the hands of the institutions 
themselves.
    So I think that there are a number of issues that certainly 
have come to my attention in the last several weeks as I have 
sought out opinions and reaction from the variety of colleges 
and universities in New York, and New York is now the number 
one State of destination for college students coming from out 
of State. So we are doing something right. I think our 
diversity and our extraordinary range of offerings has created 
a market that attracts more students from other States than any 
other place in our country and we have a layered accreditation 
process.
    We do have something of a variety, Senator Alexander, 
because we not only rely on the regional associations, but the 
Regents of New York, which is an independent body appointed by 
the branches of the legislature and the governor, and for very 
long-terms to remove them from political interference, also 
accredit some of the institutions.
    So I think that this is an area where there certainly is 
room for a vigorous debate, but I don't think it should be a 
place to settle old scores and agendas that have to do with the 
cultural wars that we apparently are going to fight at least 
for the rest of our combined lifetimes. Instead, we ought to be 
looking at this issue from the perspective of, I think, great 
pride in our higher education system.
    I think President Cardoso hit the nail right on the head. 
There isn't anyplace that has done a better job that provides 
not only tremendous opportunities, but second chances for 
nontraditional students who, frankly, are not going to be as 
well prepared, and frankly, may not have had either the family 
background or the public school or other preparation.
    And I would just conclude by saying that according to the 
recent statistics I have at hand, we still only have 65 percent 
of our students graduating from high school. We still have less 
than 40 percent of those students ever entering college. We 
still have only 20 percent in that cohort earning college 
degrees within 6 years.
    So we have a long way to go and there are a lot of 
improvements that many of us are focused on in the pipeline to 
higher education. But if anybody were to look from Mars at the 
education system of the United States, I think the last piece 
of it that they would want to start messing with is our higher 
education system. We have a lot of work to do on preschool, on 
elementary and high school, and I think we ought to provide as 
much support as possible where changes need to be made that are 
appropriate, look into them, but otherwise, I think it is a 
road we should not go down with respect to interfering with 
what has produced such an extraordinary product over so many 
years.
    The Chairman.  Thank you, Senator Clinton.
    I have to go to a budget meeting, unfortunately, so I am 
going to turn the meeting over, but before I turn the meeting 
over to Senator Alexander, I would be interested in this whole 
e-learning issue. I just see such huge potential, as everybody 
does, in this opportunity to learn via the Internet, but how do 
we tie it into the issue of making sure that the product is 
real and the product is producing results, and what is the 
accrediting agency's true role in this exercise?
    Mr. Crow. I think that you will find that many of the 
benchmarks on e-learning are going to be established by our 
very traditional institutions who already have reputations for 
high quality in what they do on ground or in the classroom and 
will hold their e-learning to those same standards. In fact, it 
is basically from those people that we evolve our own 
understanding of what constitutes quality in e-learning.
    By and large, I think most folks are not uncomfortable with 
it when it is provided by a traditional institution. Their 
discomfort level starts to emerge when it is the sole delivery 
of a single institution, and their concern at that point is 
what within that institution stands as the voice or the 
indicator of quality that you normally find in a traditional 
institution? There are various ways that they can recreate that 
kind of internal quality assurance and I think they also look 
to us, as their accrediting agency, to be the third-party 
reviewer to see whether they have done it correctly.
    So I am convinced, at least within the kinds of 
institutions that seek regional accreditation or even the 
institutions that seek accreditation from an agency recognized 
by CHEA or the Department, that there are some pretty good 
hallmarks of what constitute quality in e-learning 
environments.
    The Chairman.  Does anybody else want to comment on that?
    Mr. Wallin. Yes, just a moment, if I may. My organization 
has just finished up with a three-year study of this funded by 
the Department of Education, by FIPSE, and of course one of the 
things we found out is that if it came to education quality, 
that is, what is actually being learned, you cannot hold e-
learning to a higher standard than you are going to hold a 
classroom. And by the way, I agree with Steve. We found that 
the best systems tend to be a combination, but there is real 
disagreement here.
    There are those of us who feel that much of American higher 
education is absolutely fabulous, but also feel that those who 
complain that students are walking in illiterate and leaving 
ignorant sometimes are saying the right thing, as well. So are 
you holding them to a higher standard or to the same standard 
or a lower standard, and I think that is part of the issue 
there.
    And if I might, I noticed Senator Clinton has left, but I 
did want to mention one thing about her remarks on the fear of 
losing the autonomy of institutions if we do anything about 
transfer of credit, and I would just simply say, as far as I 
know, that certainly would not happen. Everyone I have ever 
spoken to about transferability of credits agrees that the 
accepting institution is the one who decides the acceptability 
of it. We are only talking about the interposition of other 
agencies doing it.
    The Chairman.  Thank you.
    Mr. Potts. I would just like to say, it's AASCU's position 
that if there is a broadening of the eligibility for financial 
aid to distance learning type institutions, there is the so-
called 50 percent rule that you are aware of. We think the 
accrediting community is prepared to handle that and judge 
quality as they do the regular programs. We think the content 
of the programs and the learning outcomes are the things that 
should be measured, not necessarily the mode of delivery.
    In one of my other roles, I was a chair at one time of the 
National Conference of Bar Examiners and got to work with 
American College Testing on developing tests and looking at 
their products, and there are any number of tests for rising 
juniors or whatever that can measure these outcomes in quite a 
psychometrically sound way so that if the institutions or the 
accrediting agencies or whatever wish to have more outcomes 
information, they can get that fairly easily.
    The Chairman.  I regret that I have to leave. This has been 
an excellent panel. It has been extraordinary, but I have to go 
to a budget meeting. Senator Alexander--you will be in his good 
hands.
    Senator Alexander. [presiding]. It is very dangerous for 
the chairman to do this. [Laughter.]
    Thank you, Mr. Chairman, and I will only keep you a few 
more minutes, but I would like to pursue, if I may, the idea of 
whether there are appropriate ways to create a little more, if 
not competition, choices. Let me mention two or three things I 
have heard from you and then give each of you a chance to say 
whatever you would like to about any of this.
    One possibility might be--let me ask Dr. Wallin first, if 
someone is accredited by your organization, are they also 
accredited by the regional organization, or must they be?
    Mr. Wallin. They must--no, they don't have to be and some 
of them aren't. But more and more, we are finding that a number 
of colleges come to us that are accredited by their regionals 
and they want our accreditation to focus on their academic----
    Senator Alexander. But they don't have to be?
    Mr. Wallin. No, they don't have to be.
    Senator Alexander. So if a liberal arts college decided 
that your Good Housekeeping seal of approval was all it needed, 
that would be fine, and that is a new development. That is the 
last 10 years, right?
    Mr. Wallin. Yes, sir.
    Senator Alexander. So that is an example of how that can 
work, and I gather in a sensible way. Are there other obvious 
areas? You mentioned research universities. We have between 50 
and 100, I guess is the number, research universities. There is 
nothing like them quite in the world except in the United 
States. They are very different than most other institutions. 
That might be an area. Are there other areas like liberal arts 
colleges? Let me just go down through the things I have heard. 
That is one question, other types of--by type of institution.
    No. 2, outside the region, as I understand it, the Middle 
States Accrediting Association doesn't accredit schools in 
California and the North Central doesn't accredit Vanderbilt. 
Am I correct about that? It stays within its region?
    Mr. Wallin. You are correct.
    Senator Alexander. But wouldn't that be a possibility, to 
allow--if an institution respected the accreditation of one 
regional organization and preferred it rather than another, 
would that not create some choices without terribly altering 
the system?
    Three, is there more power that we could give to the 
Secretary without making the Secretary an overly intrusive 
force? For example, the opinion of my legal counsel when I was 
there 10 years ago was that while I could interrogate Middle 
States about why it felt it was important to decide whether a 
woman ought to be on the board of Westminster College and 
whether Baruch College ought to have an 18 percent minority 
admission, I couldn't tell it to do anything. I could say it 
wasn't reliable as an accreditor. That was it. So is there more 
power the Secretary ought to have toward this goal we are 
talking about?
    And another approach, would there be a possibility of 
allowing the accrediting agencies to take difficult problems, I 
mean, clear failures or clear institutions that are not 
performing, and rather than deal with them themselves, refer 
them to something else, either the Department of Education or a 
board created by the Department, because my sense of it is that 
all the accrediting agencies are asked to do here for the 
Federal Government is a fairly minimum standard. We are not 
asking you to turn every institution into Dartmouth. We are 
just asking whether it is adequate as an institution to receive 
students who have Federal funds. So what usually happens when 
you have a marketplace and a set of choices, as we do in higher 
education, you always have problems on the fringes. So should 
we have a place for those issues to go other than to 
accrediting agencies?
    So that is four things I gleaned from what you have been 
saying. I wonder if any of you would have any comment on that. 
Why don't we just start there and go right down the line.
    Mr. Crow. I will try to address as many of the issues as I 
think I have something to say.
    Senator Alexander. OK.
    Mr. Crow. I think you may discover, and Dr. Wallin can 
certainly be the one who testifies to this, that it is not easy 
to set up an accrediting agency and it is not easy to get it 
recognized as a legitimate accrediting agency. Quite often----
    The Chairman.  By whom? By the Secretary?
    Mr. Crow. By the Secretary, because unless you are a 
gatekeeper now for Title IV funds, the Secretary does not want 
to evaluate you. So every new agency that seeks to have some 
sort of DOE imprint on it discovers that it has to ask at least 
one or two institutions or programs to take the risk of naming 
this yet-to-be-recognized accrediting agency as a gatekeeper. 
And so I think that is one thing right there.
    I am not arguing that you change the rules of how you get 
to be recognized as a gatekeeper, but once upon a time, the DOE 
recognized all sorts of agencies, whether they were gatekeepers 
or not, and once they decided they were only going to recognize 
gatekeeping agencies, all of a sudden they no longer provided 
that service of sort of legitimizing a new agency. CHEA can do 
some of that, but for some kinds of institution agencies, 
perhaps CHEA isn't even available to give that kind of 
legitimacy.
    Second, there are options. I mean, they are talked about 
all the time. Selective liberal arts once upon a time thought 
that they should set up their own accrediting agency. I have, 
in fact, encouraged some of them to look at AALE when they were 
frustrated with us, and largely it was over assessment of 
student achievement that they were frustrated with us. We have 
heard about the research universities frequently thinking about 
setting up their own. I have offered to help tribal colleges 
set up their own accrediting agency. So there is talk about it, 
but when push comes to shove and really trying to get it 
together, it turns out to be a much more difficult business 
than a lot of folks want to step into.
    Power to the Secretary--I think we learned the lesson of 
1992, to be quite honest, and I think all of us are talking 
about things and doing things differently than we did before 
that situation, particularly about diversity and what right 
does an accrediting agency have to be quite, or perceived to be 
quite as prescriptive as some folks felt that Middle States was 
at that time. I think the Secretary exercised through the 
committee the kind of power that he needed to, and that is draw 
attention to an issue and then leave it to us to try to 
understand that issue and to respond to it.
    The clear failures is a very interesting problem because we 
do feel that the very institutions that are marginal for us, 
and yet perhaps fulfilling some important need, we are not as 
well equipped to actually serve them, to help them meet those 
problems. We have had conversations about whether we should try 
to get a program, some funding that could be done through the 
Department and through their friendly accrediting agency to 
actually help them. But as we are currently structured, I don't 
have the funds to step into a troubled college and help it 
develop the systems it may need to actually turn around and 
survive.
    I hope I have answered several of your issues.
    Senator Alexander. That is very helpful. Thank you.
    Dr. Wallin?
    Mr. Wallin. Yes. Well, let me speak first of all to this 
competition, because obviously I am for it. If the Secretary, 
who is now a Senator, had not decided to free that system up, 
my organization would not have been able to have applied to the 
Secretary and receive recognition.
    However, it is, I think, unrealistic to expect many more to 
tread down this path. Not only is it difficult, the real 
problem is how do you support such a thing? There is a catch-22 
here. Accreditation is supported by membership. Well, how do 
you gain enough members to have the budget paid for if you are 
starting off and all 4,000 colleges in the country are already 
members of an organization?
    Little by little, some join you, some join both, but it is 
an expensive operation to do all of this, and I can tell you, 
as the person who raises the money for all that we do, it is 
hard to imagine really making headway unless some other way of 
funding were found. So that is almost a nonstarter, except for 
getting rid of any artificial barriers, such as the transfer of 
credit, things of that sort, that were never intended to be our 
barriers but, in fact, have become them.
    As far as accreditation, say referring nonperformers to the 
Department or something of that sort, I wouldn't have any 
problem with that except for one thing. On the basis of what? 
Again, the difficulty is that, by and large, accreditation--we 
are talking about institutional accreditation now--knows what 
to do when it sees bad management. It knows what to do when it 
sees financial problems.
    The real difficulty is this. What if it is a wealthy 
school, it doesn't have financial problems, it has a pretty 
sound administration and a five-year plan, all of these things, 
but the fact of the matter is the students aren't being very 
well educated there? What sort of standards are required in 
order to do something? Now, granted, we have them and we do 
something about it, but we don't have 900 members, either.
    To give you an idea of what this is like, I will not 
mention the agency, but not too long ago, a new president took 
over one of the regionals and had a very strong interest in 
generating more of a general education program, more liberal 
education, more required courses, and he tried to do that. We 
had a meeting of the colleges in his region. They listened for 
a little while until finally one of the representatives of a 
State institution said, look, why don't you just get off it? We 
are not in the business of this precious liberal education. We 
are not going to do that. Boom, that was it. It is a membership 
organization, and it makes sense if you think about what the 
large State institutions are interested in and what the smaller 
ones are.
    Now, are there other groupings? Yes, there are these 
natural groupings, such as liberal arts colleges and research 
universities and maybe Bible colleges and other things. But 
again, those natural groupings are not going to be enough to 
just generate new accrediting agencies because of the problem 
of funding them and maintaining them and all of that, but there 
is not a built-in one.
    The only new one I know, accrediting agency that has gotten 
around that is the accrediting agency, the second one now for 
teacher education, TEAC, and it was founded out of ACE, wasn't 
it?
    Mr. Potts. No, CIC.
    Mr. Wallin. CIC, which is a membership organization. So 
they started off with members. So it is hard to see how one is 
going to improve things that way.
    Give more power over accreditation to the Secretary. Now, 
if what we mean by that, and I think what we mean by it is 
this, that the Secretary would then hold accrediting agencies 
more responsible for student learning. It is not that I 
necessarily object to the power. I again see the problem is, on 
what basis? On what basis is SACS, for example, which has, 
what, 900 institutions, I think, or something, going to be able 
to say, well, we are having a problem because the 
administration is fine, the place has been here 200 years, and 
gee, the presidents are good folks and everything is fine 
except the real fact of the matter is if you sit in one of 
those classes, they are really, really at a very low level for 
what the place says it is doing.
    About the only way I could think of that you could do 
anything like that from a regional accreditor maybe would be to 
get the school on false advertising, because as a friend who 
helped me start this up once said, a man very familiar with 
accreditation said, ``Do you want to know what the problem of 
accreditation is in a nutshell? I will tell you. Accreditation 
is and should be mission driven, but what that means is this. 
If you go on a campus and the campus says, `Our mission is to 
turn out chicken thieves,' the only question the accreditor is 
interested in is, `Well, are they stealing the chickens all 
right or not?' '' [Laughter.]
    Mr. Wallin. Now, that is, of course, to be a little 
flippant about a serious matter, but it is a problem that is 
only solved, it seems to me, with specializing.
    What I was suggesting, by the way, is something that is 
evolving a little bit and that is that some institutions are 
beginning to see that they want a little bit of both, that the 
institutional accreditors do a very good job of what they do, 
but they don't deal with specific kinds of education very well. 
They don't tend to send the right kind of faculty there. It is 
always large administrative teams and so on.
    So right now we have before us, for example, a college that 
is already accredited by Middle States and intends to stay 
accredited and is going to come before my board at its June 
meeting, as well. So there is a way of working together. It is 
just a very slow process, trying to get that going. But it 
seems to work fairly well, and I have spoken with Steve Crow 
about this and we both accredit at least one institution. So I 
can't define a silver bullet to do it.
    Senator Alexander. I want to make sure I hear from Dr. 
Martin and Dr. Potts, and then I think we have a vote in a few 
minutes, so please go ahead, Dr. Martin.
    Mr. Martin. I would like to try to answer Dr. Wallin's 
question, on what basis might the U.S. Department of Education 
play a role here. The cases of accreditation sanctions and 
withholdings that Senator Clinton called extreme--let us not 
focus on extreme cases, she said--I remind the committee are 
the only cases reported in the last 10 years other than what 
most cases are financial instability and mismanagement, which I 
think goes back to your comment, Senator Alexander.
    We are looking for a basic level here, and Dr. Wallin 
testified that is what the regional accrediting associations 
are good at. But the fact is, that could easily be done not by 
a two-step process, but by a one-step process, by the U.S. 
Department of Education placing reporting requirements on the 
college, figuring out what are the criteria you need to be 
financially stable, appropriately managed, and do you have a 
coherent mission and so forth.
    You could report that, with penalties for fraud, of course. 
This is how the Securities and Exchange Commission and many 
regulatory agencies work. You could do some spot checks like 
the IRS to detect possible cases of fraud. It would be a very 
clean case. As former Secretary Alexander knows, the financial 
health of institutions of higher education is already done 
separately by the U.S. Department of Education. It would not be 
that much of a stretch to add these other qualifications to 
make sure, basically, you are a legitimate college, not a 
fraudulent institution.
    So I would suggest--and then, that doesn't mean accrediting 
disappears. Accrediting, we have to remember, existed prior to 
the Federal Government stepping in and giving them life or 
death power over institutions. Then it would be up to colleges 
to use accreditors for whatever sort of certification they 
desired, but it would be voluntary and for whatever consulting 
they desired. But it would be voluntary for the purposes. I 
think this would meet the needs of the Congress in ensuring the 
nonfraudulence, let us say, of the student loan program.
    Senator Alexander. Dr. Potts?
    Mr. Potts. A couple of things. Right now, the Southern 
Association just adopted new principles of accreditation to 
give the on-site teams--they divided the review to off-site 
teams and on-site teams. There is a clear mandate to the teams, 
and I am leading 1 week after next, if you see an area of 
weakness in this institution as a peer, you call that to our 
attention, and there are these core requirements and these 
principles, all the way from faculty qualifications to the type 
of notices that are given to students and other things. And in 
the law as it exists now, you have to have certain standards 
with regard to curricula, faculty, facilities and equipment, 
and so forth. If you want more performance data, you could ask 
for that on student outcomes.
    But one size does not fit all here, and you have got now 
the option. It was indicated, when I was on the advisory 
committee, Dr. Wallin's group came before us and was 
recognized. You can choose that if you would like instead of 
one of the regional associations. The nursing people adopted a 
new--we now have two nursing accrediting associations. We just 
heard about teacher education.
    So there are ways now to address these problems that you 
have raised and there is some market--there are market options. 
But I think it says a lot that people are not leaving the 
regionals in droves and that the 100 or so different types of 
accrediting agencies all have a clientele, and over the last 10 
years, there have been new ones created, as Dr. Wallin's group 
is one of those.
    So I think the things that you want to happen, most of them 
can happen under the existing law or with very slight tweaking 
of existing law.
    Senator Alexander. I want to thank the four of you for a 
very helpful afternoon. I think all of us, the Senators who 
were here and those who haven't had a chance to come, are here 
in the spirit of asking and trying to learn how this works.
    Let me ask you one quick question, Dr. Potts or Dr. Crow. 
When you finish your accreditation visit, your three-day visit, 
say, at Murray State, which takes a lot of time, and I know 
that, to whom do you make your report?
    Mr. Potts. We write a report up and then we send it for 
correction of factual errors back to the institution, no 
substantive thing. Then we send that report to the Southern 
Association office in Atlanta. They then refer that report to 
something called the C and R committees of the commission, 
which is a 77-member group, democratically elected, and they 
measure those things that are found against the criteria that 
are in place and then make a judgment as to whether that is 
accepted, whether there has to be some follow-up, or whether it 
is so bad that there has to be some sanctioning.
    Senator Alexander. How often does the board of trustees of 
an institution that you examine call the visiting team in and 
say, we would like to spend the day or an afternoon with you 
getting a full report on the strengths and weaknesses of this 
institution?
    Mr. Potts. We always have exit conferences, and the 
president----
    Senator Alexander. With whom?
    Mr. Potts. The president sets that up as to how broad or 
how narrow it is. I did one last year for Angelo State. 
Chancellor Urbanovsky and board members came to that one.
    Senator Alexander. Did they?
    Mr. Potts. Yes. We almost always talk to individual 
trustees, usually the board chair, when we are on the campus.
    Senator Alexander. In the private world, often at some 
point the president is asked to leave the room and the auditor 
comes in and meets privately with the board and they spend a 
couple of hours telling him or her whatever needs to be told.
    I have a very strong bias here. I haven't been here long 
enough. I mean, I have got a real concern about two things in 
higher education which I have already said I think is awfully 
good. One is the one-way view on so many campuses, which just 
disgusts me because they are supposed to be places of real 
diversity, and there are places where quality is lacking.
    But I haven't been here long enough to get comfortable with 
the idea of fixing it in Washington, because as Secretary, I 
may have been offended by what the Middle States Association 
did in terms of setting itself up as the arbiter of diversity, 
but the next administration might completely disagree with me 
and want to insist on that at every place. You might have 
Senator Helms or Senator Kennedy. If you get up here, all of 
this gets into what you are doing and it interferes with the 
autonomy.
    So I am looking for ways, I guess to, put the 
responsibility for quality back with the president and the 
boards and to try to understand. However, at the same time we 
have given this enormous power to accrediting agencies, this 
enormous hammer, which maybe they didn't even ask for. We don't 
pay them to do it, which is a good point, Dr. Wallin, although 
if we did pay you to do it, that would raise all sorts of 
questions, too. Some Congressman would come right along and 
want to add about five things he wanted you to check on and 
three or four cultural aspects of each campus.
    Let me invite you, as you reflect on what each other has 
said today and the questions you have been asked, if you can 
add to the specific suggestions you have already made, which 
are very helpful, on ways that we can provide more options for 
accreditation, make accreditation more useful for quality while 
at the same time preserving the autonomy of the American 
university, we would all welcome that.
    I thank you very much for joining us and the hearing is 
concluded.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Steven D. Crow

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to be here today to discuss Higher Education Accreditation. 
I head The Higher Learning Commission of the North Central Association 
of Colleges and Schools. Recognized by both the United States 
Department of Education and the Council on Higher Education 
Accreditation, the Commission has a membership of 985 colleges and 
universities located in the 19 States of the north central region. We 
also are proud to count in that membership 24 tribal colleges whose 
authority comes from sovereign nations located within those States. My 
Commission has accredited colleges and universities since 1913. I also 
serve as the co-chair of the Council of Regional Accrediting 
Commissions (C-RAC). The seven regional accrediting associations 
accredit 3,022 institutions enrolling approximately 16,619,890 
students.
    Each regional institutional accreditation agency was created by the 
colleges and universities it accredits. For the past 50 years these 
agencies, originally established to provide self-regulation and shared 
assistance in stimulating institutional and education improvement, have 
served a unique quasi-public role in that their accreditation decisions 
on institutions have been accepted by the Federal Government as 
sufficient evidence of educational quality to warrant disbursement of 
Federal student financial aid and other Federal grants to those 
institutions. For the past 15 years in particular, we have all been 
engaged in the very unique and very American effort to create an 
effective and trustworthy partnership through which privately held, 
voluntary self-regulation supports the broad public policy agenda for 
higher education as defined by the Federal Government.
    As we have every 5 years since the passage of the first Higher 
Education Act, we are engaged again in very basic discussions about how 
accreditation generally, but regional institutional accreditation in 
particular, effectively serves the public interest through its 
gatekeeping role for Federal funds. A little over a decade ago, the 
concern was whether accreditation could be an effective shield against 
fraud and abuse. The last decade, I believe, has shown that it can be. 
It is fair to say that most of us, although deeply concerned by the new 
levels of Federal oversight established in 1992, have come to 
understand, appreciate, and support the relationship we now have with 
the Department of Education.
    But we understand that new concerns mark this reauthorization. We 
welcome the indications we have received that the link between regional 
accreditation and Title IV gatekeeping will be retained and 
strengthened. This is wise policy because:
    <bullet> Accreditation has proven to be an effective partner with 
the Federal Government over the decades, responding effectively to new 
Federal requirements adopted in 1992 and continued in 1998.
    <bullet> Accreditation has proven to be responsive to changing 
public policies for higher education through standards that emphasize 
access and equity and, most recently, assessment of student learning.
    <bullet> Accreditation honors and supports the multiple missions of 
U.S. institutions of higher education so essential to the success of 
higher education and to increased access for students.
    <bullet> Accreditation through private, non-profit agencies 
provides exceptional service at no direct cost to taxpayers.
    <bullet> Most institutions support the claim that accreditation 
contributes value to their operations and supports them as they strive 
to improve the quality of education they provide.
    <bullet> Self-regulation of the quality of higher education through 
recognized accrediting agencies is an effective tool to inform the 
marketplace because it relies on expert judgments of higher education 
professionals; moreover, because of that expert judgment it carries 
significant credibility with the institutions under review.
    Without assuming to understand all of the other significant issues 
that each member of this Committee might want to discuss, I will 
address the primary issues that my regional colleagues and I understand 
to figure most prominently in this reauthorization. I will list the 
matters and provide a brief summary of how most of us in regional 
accreditation understand each issue and how we would like to shape our 
relationship with the Department to address it. Several regional 
associations part of C-RAC have put forward to members of the House and 
Senate specific legislative proposals. The following comments summarize 
much of the contents of those proposals.

Institutional and Agency Accountability for Student Learning

    Starting with the 1988 reauthorization that explicitly mentioned 
the expectation that a Department-recognized accrediting agency include 
within its standards measures of student learning, the Federal call for 
increased accountability for educational performance has been heard. In 
fact, my Commission initiated its student academic achievement 
initiative that year, and we have been energetically pushing our 
institutions to conceptualize and implement assessment programs ever 
since. Each of the other regional associations, as well as our national 
counterparts, has made evaluation of student learning a central focal 
point of our work. Each of the five regional associations that rewrote 
their standards in the past 4 years placed achieved student learning at 
the center of those new standards.
    But measuring student learning for the goal of educational 
improvement, no matter how well it is done, does not automatically meet 
the current expectation that the findings of those measurements be 
shared with current and prospective students and the public at large. 
The fact is that a surprisingly large number of our colleges and 
universities have lots of outcome data that they use to evaluate their 
own educational effectiveness. For some types of institutions the data 
are fairly standard and provide grounds for comparison: graduation 
rates, job placement rates, licensing rates, and so forth. Each 
institution has data that are institutionally specific, testifying to 
an educational mission achieved but not allowing for easy benchmarking 
with other colleges and universities. While concerned about the any law 
that would summarize educational performance in a few standardized 
measures applied to all types of colleges and universities, we would 
support legislation that:
    <bullet> Continues the expectation that a federally recognized 
accrediting agency has standards related to successful student 
learning. We encourage legislative interpretation of this requirement 
that gives discretion to the Department to interpret the law to allow 
for qualitative standards instead of the bright-line performance 
standards being called for by the recent Office of the Inspector 
General report (ED-OIG/A09-C0014, July 2003).
    <bullet> Requires institutions receiving Title IV monies to provide 
public information about educational performance easily understood by 
prospective and current students. However, we would allow each 
institution to create its own report fitted to its educational 
objectives and drawing, as appropriate, on the variety of data it uses 
in determining its own effectiveness.
    <bullet> Establishes for Department-recognized accrediting agencies 
(1) the responsibility to vouch for the effective distribution of this 
public information and (2) the expectation that within an accreditation 
visit the agency will consider the publicly-disclosed student learning 
data as part of the review. We highly recommend that this be stated as 
an expectation for agency practice, not as a requirement for specific 
learning outcomes standards that a recognized agency must adopt and 
apply.
    <bullet> Establishes for Department recognition the creation and 
implementation by an accrediting agency of a stronger program of 
disclosure about accreditation processes, accreditation actions, and 
the finding related to those actions. At this point, the regional 
commissions have not agreed on a common template that we all might use, 
but it is one of our highest priorities. We strongly urge that the 
template for public disclosure not be defined in law, allowing 
important conversations within accrediting community to create 
effective and appropriate models.

Student Mobility and Transfer of Credit

    Accrediting standards hold that the institution granting a degree 
must be accountable for the integrity of that degree. Yet we appreciate 
the fact that transfer of credit is a matter of public concern. 
Although none of the regional accrediting associations have policies 
that limit the variables an institution should consider in determining 
transfer, we have come to learn that many of our members act as though 
we expect them to limit transfer to credits coming from other 
regionally accredited institutions. In recent years we have all adopted 
the CHEA principles on transfer November 2000, which mark a new 
consensus on good practices in transfer, and we have forwarded them to 
our institutions for study and implementation.
    My colleagues and I caution against any wording in this 
reauthorization that could be interpreted as Federal regulation of this 
key component of institutional academic integrity. Yet we would support 
legislation that addresses transfer of credit by:
    <bullet> Requiring institutions receiving Title IV to evaluate more 
than the accredited status of an institution in determining 
transferability of credits awarded by it.
    <bullet> Requiring that an institution's transfer policies and 
procedures state unambiguously the criteria that will be weighed in 
determining transfer of credit.
    <bullet> Stating that a Department-recognized accrediting agency 
will have procedures through which it reviews transfer policies during 
each accreditation review to ensure that they meet Federal and agency 
expectations. While we also caution against adding significant new 
record-keeping and reporting requirements on transfer, we are willing 
to be expected to include in our accreditation reviews any public 
reports on transfer that might be required by State or Federal 
agencies.

Distance Education and eLearning

    Each regional Commission believes that it has been doing a sound 
job of evaluating distance education generally and eLearning 
specifically. We joined together just a few years ago to adopt a set of 
best practices that inform our institutions as they implement eLearning 
and our teams as they evaluate it. While we appreciate the concerns 
that many legislators have about this particular modality of providing 
education, we draw attention to the fact that on-line courses serve 
large numbers of campus-based students as well as students studying at 
a distance. In short, legislation that classifies all eLearning as 
distance education and then calls for different regulation of it will 
inadvertently set expectations for what some institutions and their 
campus-based students now treat as a ``scheduling option.''
    The concern about eLearning appears to be directly related to the 
call to end the 50/50 rule that now disqualifies from eligibility for 
student financial aid certain types of institutions heavily involved in 
eLearning. Very few institutions accredited by regional agencies are 
disqualified by the 50/50 rule, and almost all of those that are have 
been participating in the Department of Education's Distance 
Demonstration Project. We take no stand on the 50/50 rule, but we do 
not believe that the price for its abolition should be enhanced 
scrutiny of distance education (eLearning) currently provided by our 
member institutions. Therefore, we would recommend that this 
reauthorization:
    <bullet> Require Department-recognized accrediting agencies to 
document that their existing standards provide for effective evaluation 
of the quality of distance education. We propose that in lieu of 
defining special standards for eLearning, the bill rely on the standard 
of comparability: namely, that student learning in eLearning programs 
be comparable to that in campus-based programs. All regional 
associations have already been recognized by the Department as 
providing effective quality assurance for distance education. We would 
propose that such recognition be honored and, therefore, that we not be 
asked to review again all of the distance education and eLearning to 
which we have already extended accreditation.
    <bullet> Recognize our offer to create and implement processes that 
allow us to monitor when appropriate those institutions with 
dramatically increasing student enrollments in their eLearning 
programs.
    <bullet> Include, if found appropriate, our offer to document that 
our peer reviewers are selected and/or trained to ensure their capacity 
to evaluate eLearning.
    <bullet> Include, if found appropriate, our offer to include within 
our reviews of eLearning an evaluation of how the institution documents 
the integrity of the student in eLearning courses and programs.
    Mr. Chairman, thank you very much for the opportunity to testify 
today. I look forward to learning from my fellow panelists and 
answering any questions that you and the other members of this 
Committee may have.

                Prepared Statement of Jeffrey D. Wallin

    Thank you very much for having me here today. Higher Education in 
this country is on the road to becoming ubiquitous. This is in large 
part due to the efforts of many at the state and national levels to 
provide access to student populations that had not previously attended 
college. However, in the last two decades serious questions have been 
raised about whether the quality of higher education has kept up with 
its growth in access and in expense. Report after report have confirmed 
what every professor privately groans to himself: the qualifications 
for success in higher education cannot be reduced to mere native 
intelligence and ability; almost as important are the skills that we 
used to take for granted in any high school graduate, but which now are 
sadly lacking in all too many entering and returning students.
    I do not mean to imply that this problem has in any way come upon 
us unexpectedly. Most of us are familiar with Walter Lippmann's 
complaint that the modern world has ``established a system of education 
where everyone must be educated, yet [where] there is nothing in 
particular that an educated man--he meant men and women--should know.'' 
But this was preceded by many other observations of the sort, including 
Winston Churchill's that ``education is at once universal and 
superficial.'' It is our duty and our responsibility to do what we can 
to preserve this newly won access to higher education while resisting 
any increase of superficiality or lowering of quality.
    Considerable pressure has been brought to bear on higher education 
to account for the rising costs of higher education that have 
accompanied its growth; this, coupled with repeated revelations of what 
is not being learned at the undergraduate level has resulted in the 
rapid spread of learning assessment in recent years. Since funding 
provides one of the few levers by which one may attempt to prod higher 
education, accreditation, which acts as a ``gatekeeper'' to federal 
funds, has been required by law to develop or at least monitor outcomes 
assessment at its member institutions.
    Historically, AALE has been a proponent of educational assessment, 
and while we remain a proponent, we believe that assessment has been 
taken as far as it reasonably can be taken by institutional or regional 
accreditation.
    The American Academy for Liberal Education was established in part 
to strengthen general and liberal learning by establishing substantive 
academic accreditation standards, such as foreign languages, 
mathematics, history, philosophy, science, and so on. While we believe 
there is much to say for this approach, we are aware that it speaks 
only to the input side of the learning equation, not to the output 
side, and thus have spent a good deal of time in assessing student 
outcomes as part of moving accreditation from an almost exclusive 
concern with resources to a system also concerned with learning.
    Our involvement with moving accreditation from a process or 
resource based instrument to one focused on student learning began 
several years ago, with major grants over several years from the Pew 
Charitable Trusts and the John and James Knight Foundation.
    Fortunately, considerable work already existed in this field, and 
with the help of leading figures, such as Peter Ewell of NCHEMS and 
others, we were able to refine and adapt some of this for use by 
accreditors.
    Following our initial grant, Pew then went on to make grants along 
the same line to some of the regional accrediting bodies. Although our 
grant was smaller than any of the others, an independent review 
commissioned by Pew found the AALE grant to be the only clear success.
    Learning Assessment is now, or is becoming integral to 
undergraduate accreditation. While it is true that assessment is still 
in its infancy, I believe that its considerable benefits are becoming 
apparent. Perhaps the most significant of these, from AALE's point of 
view, is that it has proven to be one of the very few instruments that 
can be successfully employed to encourage faculty to reconsider just 
what it is that general education is supposed to do. Answering that 
question--which is necessary if one is going to assess whether the 
means chosen to achieve these objectives are working--is the critical 
first step in what seems to be a return to faculty responsibility for 
undergraduate pre-major education.
    The loss of a core curriculum at many colleges over the past few 
decades requires this because that loss has of course been accompanied 
by an increase in variety. But difference resists assessment, making 
the assessment of such a variety of programs extremely difficult. As 
much as academic fields of specialization may have their own internal 
difficulties they do, by and large, agree to the course of study likely 
to produce a good chemist, engineer, or lawyer. Competent assessment of 
the effectiveness of such programs is widespread, which is attributable 
to the common coursework taken by all. Thus we ought not to be 
surprised that the most difficult comparative data to obtain is of 
undergraduate student learning, particularly in the general education 
portion of the curriculum. And so now we have one more argument for 
restoring the core: in addition to its educative value, its ends can be 
known and therefore assessed.
    Success in accreditation monitored student assessment at the 
undergraduate level has, as mentioned above, produced considerable 
good. However, this has been accompanied by a very real cost, a cost in 
lost time. Assessment has added to the erosion of faculty and 
administrative time, something itself that may well be responsible for 
maintaining poor learning outcomes. I believe this loss of time is 
significant and that we should be careful not to increase it further. 
We run the risk of reducing the amount of actual teaching taking place 
on our campuses and perhaps even of creating a huge but artificial 
edifice of assessment protocols and bodies of evidence whose purpose is 
mainly to allow faculty and administrators to ``give the accreditors 
what they want'' in the shortest and least painful way. The result 
might turn out to be little more than a cluster of Potemkin villages 
built of assessment tools and products, not education. Something like 
this has already resulted at some institutions as the result of goal 
driven administrations that seem satisfied, not so much with real 
improvement as by the creation of countless departmental mission 
statements, often submitted yearly; as if the mission or goals of the 
Biology Department were expected to change from year to year. The 
important point is that even Potemkin villages take time to construct, 
and time to maintain
    There is an old saying that ``Even a king should not ask for what 
cannot be given.'' This, I think, is the heart of the problem we now 
face. Institutional or regional accreditation was never designed for 
the kind of assessment that is increasingly desired, and it cannot 
succeed in producing it. The assessment system currently being 
developed will not and can not provide the public with what it would 
like to have: objective rankings of different colleges and departments 
as an alternative to the resource-driven rankings of popular magazines. 
The means necessary to obtain such information, at least through 
regional accreditation, would risk destroying some of the most valuable 
characteristics of American higher education, namely, faculty and 
college autonomy, freedom, and judgment. To produce truly comparable 
data, regional bodies would have to impose the same requirements and 
therefore the same kind of education upon their entire regions, and 
then throughout the country.
    In short, I believe the current legal standards on this issue are 
adequate as they stand. Let me remind us of what it says.
    Sec. 602.16 Accreditation and preaccreditation standards
    The agency must demonstrate that it has standards for 
accreditation, and preaccreditation, if offered, that are sufficiently 
rigorous to ensure that the agency is a reliable authority regarding 
the quality of the education or training provided by the institutions 
or programs it accredits. The agency meets this requirement if-
    The agency's accreditation standards effectively address the 
quality of the institution or program in the following areas:
    (i) Success with respect to student achievement in relation to the 
institution's mission, including, as appropriate, consideration of 
course completion, State licensing examinations, and job placement 
rates.
    As will be noticed, section (i), which is most relevant to this 
issue, includes these qualifiers: ``in relation to the institution's 
mission'' and ``as appropriate.''
    We believe that a stronger demand, such as the one proposed by C-
RAC would make things worse rather than better by further 
institutionalizing assessment as the goal of education rather than as 
simply one means to it.
    All too often objections from the accreditation community are 
treated as merely self-serving or as ways of trying to avoid legitimate 
public scrutiny. I would not argue that this is never the case. But in 
the case of learning assessment it is precisely those of us who were on 
the forefront of demanding more of it who are now sounding the alarm 
lest it overtake in importance learning itself. Perhaps is time to 
recall the old Midwestern observation that ``You don't fatten a hog by 
weighing it.''
    I wish to make it clear that nothing in these remarks is intended 
to suggest that better assessment cannot be achieved. My object has 
been to show that regional or institutional accreditation is not a 
proper vehicle for doing so. In my view institutional accreditation 
regarding student assessment should be left exactly where it now is, 
namely, ensuring that colleges and universities have procedures in 
place for demonstrating that they possess adequate means of assuring 
themselves that their educational purposes are being met. The range of 
acceptable procedures should be very wide, so as to accommodate the 
enormous variety of education offered in this country.
    Are there no other ways of strengthening the link between 
accreditation and learning assessment? Yes, I believe there are, at 
least if one is willing to reconsider the present structure of 
accreditation.
    It would be possible to revamp the present accreditation system so 
as to obtain the kind of answers the public seeks. Although regional 
accreditation is not set up for the sort of assessment that is 
apparently being asked for, other forms of accreditation are set up to 
do this. In fact, the fields of specialization represented by 
specialized accrediting agencies have always concerned themselves with 
content assessment. We do not hear any public outrage to the effect 
that students are graduating with biology degrees ignorant of biology, 
or that musicians, who have for centuries had to meet high performance 
standards, cannot play their instruments. Assessment works when it is 
focused on a specific subject or activity and when it is judged by 
experts in the field. The problem lies within the general education 
portion of the curriculum, which does not present a uniform entity to 
asses, and where expertise is not so easy to find.
    This is why Milton Greenburg has argued (``It's Time to Require 
Liberal Arts Accreditation,'' in the AAHE Bulletin, April, 2002) that 
the only way to solve the assessment problem as it applies to the 
academic skills so many claim are not being taught or not being taught 
well, is to move in the direction of specialized assessment of general 
education and liberal education even though the latter is often defined 
as the opposite of specialized education.
    One possibility would be to hold the specialized accreditors 
responsible for general education. As it now stands, almost all of them 
require students to enroll in such programs, but the quality of the 
programs are assumed to have been assured by regional accreditation. 
Since we know that this is a false assumption, perhaps the subject 
specific accreditors should demand directly from the institutions 
themselves evidence of the skills and knowledge they claim their 
students are acquiring. Another way would be for most or all of the 
specialized accreditors to come to some sort of agreement as to just 
precisely what it is they expect from such programs and then design 
means of testing for them just as they now test for accomplishment in 
their fields through exams, performances, exhibitions, and so on. While 
I believe this might work, I must point out what I consider to be a 
very real objection to this suggestion, at least from the standpoint of 
AALE. Given that liberal education is already under assault from those 
who believe that only concrete skills and specialized knowledge is 
useful, I would be very cautious about any solution that would lead to 
more specialization, since it is hard to believe that it would not be 
detrimental to the wider hopes and ambitions of liberal education.
    Another possibility suggested by Greenburg would be to reorient 
undergraduate accreditation away from the present geographically based 
system (an historical remnant of the past rather than a well designed 
tool for the current century?) to a subject or institution based 
system. That is, there could be a number of institutional accrediting 
agencies that focus on separate kinds of institutions or forms of 
education, regardless of where they may be located. Thus we might have 
an accrediting agency for research universities, one for liberal arts 
colleges, one for community colleges, and so on, bringing a new form of 
expertise to bear on specific forms of educational institutions. (AALE, 
of course, is just such an agency, one that deals with the liberal arts 
exclusively.) This would, in effect, turn undergraduate student 
assessment over to scholars in the fields being assessed, thus bringing 
the strengths of subject mastery to assessment. Even in the case of 
liberal education we have people who, while not being degreed 
explicitly in liberal education, understand the liberal arts and more 
importantly, understand the relation between them and the goals that 
lie beyond them. Regional accreditation might then be allowed to 
concentrate on what it does best, assuring the reliability of the 
processes and resources of educational institutions, and weeding 
diploma mills out of the system. (Of course, not all specialized 
accreditation performs so well, which is a good reason for encouraging 
competition in all fields of accreditation. If, for example, NCATE is 
thought by many not to contribute to strengthening teacher education, 
then by all means start up an alternative, such as TEAC.)
    I'm sure one could come up with other ways to improve content 
assessment, but the point here is that demanding it from the regionals 
is only likely to increase the problems faced by higher education, not 
reduce them. They were never intended to do this and pushing them in 
this direction is likely to be unproductive as well as unfair.
    Before closing, let me bring up a few other issues. I have 
mentioned above the virtues of competition. Unfortunately, however, the 
accreditation market has not been competitive for some time now. One of 
the reasons is that the transferability of student credits has been 
held up by organizations that at one time had no need to draw 
distinctions between institutional and regional accreditation. Thus, to 
adopt a policy that course credits can only be transferred from one 
regionally based accrediting agency to another, a policy that made some 
sense long ago when they were written, has the effect today of placing 
artificial barriers between good students and good educators. C-RAC 
addresses this problem but does not go as far perhaps as it should. If 
a school's course credits are accepted because it is accredited by a 
regional agency, why is this superior to a school accredited by a non-
regional agency with strong academic standards so long as it is also 
recognized by the Secretary? This is to place altogether arbitrary 
restrictions on a publicly funded system in a country in which 
geography matters less and less. AALE believes that the final decision 
to accept or not accept course credits from another college is the 
individual institution's prerogative, but to be defensible, that 
prerogative must not be artificially skewed to favor a system designed 
prior to present realities. Until such artificial barriers to transfers 
of credit are lifted, the illusion of a fair playing field will remain 
just that, an illusion.

                 Prepared Statement of Jerry L. Martin

    By federal law, college accreditors have a loaded gun pointed at 
the head of every college. They have the power to close the door to 
federal funding, including access for their students to the federal 
student loan program--access without which colleges today cannot 
survive. This is an extraordinary power for a private entity. It 
requires a strong burden of proof to show that this power is warranted.
    The rationale for giving this power to accreditors is to ensure 
quality. That is what surveys show the public wants and that is what 
Congress thought it was getting when it authorized the accrediting 
system.
    In theory, accreditors guarantee quality. Does the reality match 
the theory? College accreditation became a mandatory feature of the 
federal student loan program in 1952. Have they been successful in 
ensuring academic quality since that time? What is the evidence? Those 
are questions asked by the American Council of Trustees and Alumni in 
its recent study, Can College Accreditation Live Up to Its Promise? My 
comments today will focus on three areas: grade inflation, the 
curriculum, and academic freedom.
    1. Grade Inflation. Grade inflation has been increasing over the 
last 40 years, not decreasing. Nothing is more essential to upholding 
quality and motivating academic achievement than giving honest grades. 
Another report by the American Council of Trustees and Alumni, Degraded 
Currency: The Problem of Grade Inflation, summarizes current research 
on the topic. A comprehensive study by Columbia's Arthur Levine and 
Jeannette Cureton, finds that the percentage of A's has increased from 
7 percent of all grades in 1969 to 26 percent by 1993. During the same 
time period, the C grades fell by 66 percent. The problem has grown 
worse since that time. Based on his ongoing study of grade inflation, 
Duke's Stuart Rojstaczer reports that, ``The rise has continued 
unabated at virtually every school for which data are available.'' To 
cite one particularly timely example, the Boston Globe reported last 
week that, in the last two years, the number of A's and A minuses at 
Harvard actually increased from 46.4 percent to 47.8 percent. Every 
student graduates with honors that is not in the bottom 10 percent of 
his or her class. In spite of the pervasiveness of this problem, we are 
not aware of a single instance of a school being sanctioned by the 
accreditors for grade inflation.
    2. Curriculum. Probably the most important question about a college 
is: What are students studying and learning--in short, what is the 
college curriculum? Most importantly: What courses are required for 
every student? Yet, there is massive evidence for the fact that, under 
the current accrediting system, the college curriculum has fallen 
apart.
    A 1996 study conducted by the National Association of Scholars 
concluded that:
    ``[During] the last thirty years the general education programs of 
most of our best institutions have ceased to demand that students 
become familiar with the basic facts of their country's history, 
political and economic systems, philosophical traditions, and literary 
and artistic legacies that were once conveyed through mandated and 
preferred survey courses. Nor do they, as thoroughly as they did for 
most of the earlier part of the century, require that students 
familiarize themselves with the natural sciences and mathematics.''
    Ten years ago, a comprehensive study by a University of California 
at Los Angeles team headed by Alexander W. Astin found that, although 
almost all colleges claim to have a core curriculum in their brochures, 
only 2 percent have a ``true core curriculum.''
    According to the National Association of Scholars study, courses on 
English composition, which used to be an almost universal requirement, 
have eroded by one-third since 1914. Needless to say, the universities 
studied are all accredited.
    When the American Council of Trustees and Alumni surveyed college 
seniors' knowledge of American history, it found that only one in four 
could correctly identify James Madison or George Washington or the 
Gettysburg Address. The study also found that, of the 50 colleges 
studied, not a single one required a course in American history and 
only five of them required any history at all. Needless to say, these 
schools are all accredited.
    Instead of solid core requirements, many colleges now offer 
students a cafeteria-style menu of hundreds of often narrow and even 
odd courses. At various universities, the humanities requirement, which 
used to require broad courses such as History of Western Civilization, 
can be met by such narrow courses--these are all real examples--as 
``History of Country Music,'' ``Movie Criticism,'' or ``Dracula.'' The 
literature requirement, once a survey of English literature, can now be 
met by such courses as ``Quebec: Literature and Film in Translation'' 
and ``The Grimms' Fairy Tales, Feminism, and Folklore.'' History 
requirements can be met by ``History of College Football,'' ``History 
of Visual Communication,'' or ``Sexualities: From Perversity to 
Diversity.''
    In light of these courses, it is hardly surprising that the 
Association of American College's study, Integrity in the Curriculum, 
concluded that, as for what passes as a college curriculum, Cole 
Porter's lyrics sum up the situation: ``Anything goes.''
    In theory, the accreditors should be the guardians of academic 
quality. In reality, it has taken enormous external pressure, including 
explicit Congressional directives, to persuade accreditors to address 
more directly issues of educational quality and student learning. In 
response, accreditors have added some general language like the 
following from the Middle States Association: ``The kinds of courses 
and other educational experiences that should be included in general 
education are those which enhance the total intellectual growth of 
students, draw them into important new areas of intellectual 
experience, expand cultural awareness, and prepare them to make 
enlightened judgments outside as well as within their specialty.'' The 
North Central Association requires ``a coherent general education 
requirement consistent with the institution's mission and designed to 
ensure breadth of knowledge and to promote intellectual inquiry.''
    It is hardly surprising that, when the Office of the Inspector 
General of the U.S. Department of Education reviewed the criteria of 
the North Central Association, it found them devoid of any ``specific 
measures to be met by institutions'' and insufficient for 
distinguishing between compliance and non-compliance. Such criteria 
ensure that colleges will pay lip-service to sound educational goals, 
but not that they actually deliver a solid education to their students.
    Few and far between are the examples of colleges whose 
accreditation has been denied on grounds of educational performance. As 
DePaul University's David Justice writes, ``The truth of the matter is 
that regional accrediting associations aren't very good about 
sanctioning an institution for poor quality.'' In short, if meat 
inspections were as loose as college accreditation, most of us would 
have mad cow disease.
    3. Academic Freedom and Intellectual Diversity. Freedom of inquiry 
is essential to the life of the mind. A robust ``marketplace of 
ideas,'' as Oliver Wendell Holmes, Jr., called it, is the essential 
incubator of thought and learning. Professors must be free to pursue 
truth wherever evidence and reasoning lead. Students must be exposed to 
opposing points of view, be given the knowledge and skills necessary to 
make up their own minds, and be free from intimidation.
    Yet it has been over ten years since Harvard president Derek Bok 
and Yale president Benno Schmidt sounded the alarm and warned the 
public that the major threat to academic freedom in our time is 
political intimidation on campus--which has come to be known as 
``political correctness.''
    A 1994 study by Vanderbilt University's First Amendment Freedom 
Forum found that more than 384 colleges had adopted speech codes or 
sensitivity requirements that threaten academic freedom. Currently, the 
Foundation for Individual Rights in Education has a database, 
accessible at its website that contains hundreds of current policies 
restricting free speech.
    And the Student Press Law Center finds that, since 1997, more than 
370,827 student newspapers were stolen and destroyed by students who 
disagreed with their point of view. We are not aware of a single 
instance of accreditors raising a concern over this issue although it 
clearly diminishes the intellectual debate that is so essential to 
education.
    A recent Smith College study showed a disturbing one-sidedness in 
the partisan affiliation of faculty members in the humanities and 
social sciences--a pattern so marked that, if race or gender were 
involved, it would be regarded as clear evidence of discrimination.
    Diversity of ideas could be provided by outside speakers. But 
students and some professors regularly complain that panels on 
controversial public issues are almost always one-sided. Sometimes 
dissenting speakers are not even permitted to speak. Speakers as 
distinguished as Henry Kissinger and Jeane Kirkpatrick have been 
prevented from speaking because some students or faculty objected to 
their views. Former Assistant Secretary of Education Chester E. Finn 
has summed up the situation by describing universities as ``islands of 
repression in a sea of freedom.''
    These restrictions on free and open debate are intolerable and 
clearly diminish students' educational experience. And yet accreditors 
have failed to address these issues effectively.
    If the accreditors are lax when it comes to enforcing standards of 
educational quality, what demands are they placing on universities? It 
is hard to find cases of a denial of accreditation where the financial 
solvency of the institution is not at issue. Yet, in this area, 
accreditors are largely redundant. The financial health of institutions 
of higher learning is already certified by the U.S. Department of 
Education. No institution may receive federal funds until the 
Department verifies its eligibility and certifies its financial and 
administrative capacity. In addition, as the accreditors themselves 
admit, the bond-rating services establish financial viability on the 
basis of a more thorough review than accreditors.
    Accreditors mainly focus, not on educational performance or 
results, but on a variety of inputs, including the number of books in 
the library, the credentials and demographics of the faculty, student 
credit hours, what percentage of students live on campus, how many 
courses are offered at night, and so forth. They seem especially 
interested in procedures--shared governance procedures, appointment and 
tenure procedures, grievance procedures, program review procedures, and 
so forth.
    Former U.S. Senator Hank Brown, who recently served as President of 
the University of Northern Colorado, reports that the accreditors did 
not ask what the students were learning but focused mainly on whether 
the faculty was happy.
    The Chronicle of Higher Education reported last month that 
accreditors told the University of North Dakota governing board to drop 
the institution's Indian-head logo and Fighting Sioux nickname.
    Meanwhile, Auburn University's accreditation is currently 
threatened primarily because the board of trustees is said to 
micromanage the athletic program. ``None of the problems relate to 
education,'' reports The Chronicle. One has to wonder whether this is 
what Congress envisioned when it gave accreditors the power to cut off 
a university's federal funds.
    Accreditors have also had a pattern of imposing their own social 
philosophy on the colleges. As a result, some educational leaders have 
even had to face the prospect of incompatibility between accrediting 
standards and the very nature of their institutions. In the best-
publicized instance of such conflict, Thomas Aquinas College was 
threatened in 1992 with a loss of accreditation due to the fact that 
its avowedly Catholic, traditional orientation had no room for the 
multicultural courses that its accreditor was prescribing. The Great 
Books curriculum at Thomas Aquinas was the very key to the school's 
mission--so much so that there were no elective courses at all. As the 
college's president, Thomas Dillon, said at the time: ``In the name of 
advancing diversity and multicultural standards within each 
institution, [proponents of diversity] are imposing their own version 
of conformity and threatening true diversity among institutions.''
    That same year, the accrediting association was denounced by 
President Gerhard Casper of Stanford for ``attempting to insert itself 
in an area in which it has no legitimate standing.''
    Similarly, accreditors threatened to sanction Baruch College on the 
grounds that 18 percent minority representation on the faculty was not 
enough and Westminster Seminary because composition of the governing 
board was not gender-balanced.
    At the time, Education Secretary Lamar Alexander wrote, ``I did not 
know that it was the job of an accrediting agency to define for a 
university what its diversity ought to be.''
    Secretary Alexander took decisive steps to correct the problem--at 
least with regard to formal criteria. Since that time, the problem has 
gone underground. Each accrediting team has enormous latitude to apply 
its own particular brand of social philosophy and can do so with 
relative impunity since rarely is the accrediting process made public. 
At Tulane, for example, the president announced in 1995 that, to comply 
with accreditors' demands, 50 percent of all faculty hires outside the 
Medical School would have to go to minorities--a quota of precisely the 
sort the Supreme Court has consistently ruled unconstitutional.
    A heavy-handed insistence on demographic quotas is not as 
dangerous, however, as dictation of what intellectual approach faculty 
should present to their students. At an urban public university, to 
cite one 1999 case, the accrediting team actually had the gall to tell 
the institution to alter its mission along ideological lines: ``The 
College mission and vision and department goals and objectives, as well 
as the assessments, should be developed around global concepts of race, 
class, and gender''--the three code words for a politically correct 
agenda.
    If we judge accreditors on their performance, it is a record of 
persistent failure. On their watch, colleges have experienced runaway 
grade inflation, curricular disintegration, and the closing of the 
``marketplace of ideas.''
    Our original question was: Is the life-or-death power over colleges 
and universities that federal law gives accreditors warranted? Since 
the rationale for the power is to ensure quality, the question becomes: 
Do accreditors ensure educational quality? The answer must be a 
resounding, ``No.'' They do not ensure educational quality. In some 
respects, they make it worse. Their power is not warranted.
    What is the solution?
    The ideal solution is to de-link the federal student loan program 
from accreditation. A much simpler procedure--and one infinitely less 
costly and inefficient--could be set up within the U.S. Department of 
Education to certify qualified institutions. It could be similar to 
required reports and penalties for fraud used by the Securities and 
Exchange Commission. This should be sufficient to identify the 
institutions that are ``colleges'' in name only.
    In addition, for public universities, there are already two sources 
of accountability.
    First, trustees are appointed to represent the public interest and, 
with the assistance of ACTA, are becoming increasingly active and 
expert in overseeing quality. The City University of New York board of 
trustees raised admissions standards, removed remediation from the 
senior colleges, and now requires that students pass an independently 
administered examination before they move to upper-division course 
work. Boards of trustees in a number of states are taking proactive 
steps to demand more rigorous core requirements for their students. 
None of these improvements were the results of accreditors' 
recommendations.
    Second, state higher education agencies--such as the Colorado 
Commission on Higher Education and the State Council of Higher 
Education for Virginia--are embarked on what has been called an 
``accountability revolution.'' They are framing performance measures 
that look at educational results and not just inputs. Former U.S. 
Senator Hank Brown, a former college president, reports that, while the 
accreditors did not ask questions about what students were learning, 
one agency did--the Colorado Commission on Higher Education. Meanwhile, 
Virginia's State Council now collects and annually releases the results 
of institution-based assessments of student learning to help ensure 
academic quality.
    The regional accrediting associations function as de facto cartels. 
Monopolies are not good at self-correction. The best medicine is 
competition. If Stanford, Baruch and Thomas Aquinas had had an 
alternative in 1991, the accreditors would never have become so high-
handed. If current accreditors are so reluctant to apply meaningful 
standards of quality, why not allow alternatives that will?
    There are two promising alternatives that can provide much-needed 
competition.
    First, the American Academy for Liberal Education was founded 
explicitly to set a high academic standard in the liberal arts and 
provides an alternative to the regional accrediting associations. Less 
than ten years old, it has been approved by the U.S. Department of 
Education and accredits a number of colleges and academic programs, 
such as honors colleges. These colleges take pride in being able to 
meet the high standards upheld by AALE--it is like a Good Housekeeping 
Seal of Approval--and thereby assure potential students and their 
parents that this is a school of unusually high quality.
    Second, Congress should consider Senator Brown's suggestion that 
perhaps the states could accredit institutions--on a purely voluntary 
basis--if they so chose. Originally, the Higher Education Act did allow 
states this option. New York has done so in nursing and vocational 
education without problems but, since the early 1990s, this opportunity 
has been denied to other states. Whereas accreditors have shown great 
reluctance to become meaningfully involved in educational standards and 
student learning, the states have shown an intense interest in making 
sure their colleges and universities provide a first-rate education to 
all their citizens.
    The American Council of Trustees and Alumni hopes that Congress 
will address these important issues of educational quality and 
accountability and encourage competition among accreditors.

                 Prepared Statement of Robert L. Potts

    Chairman Gregg, Members of the Committee, Ladies and Gentlemen: 
Good afternoon. I am Robert Potts, President of the University of North 
Alabama. I also serve on the Board of Directors of the American 
Association of State Colleges and Universities, and have worked 
extensively in the accreditation field for more than twelve years. I 
offer my testimony today on behalf of the American Association of State 
Colleges and Universities (``AASCU'') which represents more than 425 
public colleges, universities, and university systems located 
throughout the United States and its territories. These institutions 
enroll nearly 3.5 million students--more than half of all students 
enrolled in the nation's public four-year institutions. On behalf of 
our member institutions, I am grateful for your invitation and pleased 
to be with you today.
    The central issue before your Committee today appears to be how can 
the existing accrediting and federal financial aid systems assure 
better quality and accountability for higher education students and the 
public? Ladies and gentlemen, based on my perspective as a university 
president and a long-term accrediting volunteer, the short answer is 
that a fair review of the evidence throughout this country will show 
that the present system that exists under the Higher Education Act--
with the Department of Education working in partnership with the 
regional, national, and specialized accrediting agencies that are 
recognized by the Secretary of Education--does an excellent job in most 
cases for students and the public. Certainly, de-linking accrediting 
and eligibility for federal financial assistance would damage 
irreparably the system for quality assurance that exists in this 
country today. To do this would leave no effective way, short of 
massive expenditures for federal inspectors and regulators, to replace 
thousands of accrediting volunteers throughout the country who work 
tirelessly year-in and year-out to assure that quality standards are 
met by higher education institutions to protect students and the 
public.
    Based on my years of experience in the field, and also from my 
service on the National Advisory Committee on Institutional Quality and 
Integrity for six years, I can point to example after example where the 
current system has resulted in significant improvement of quality on 
campuses throughout the country. The system that exists whereby: (1) an 
institution studies itself as measured against democratically developed 
quality criteria; (2) the institution then is visited by a team of 
peers from other institutions who write a report; (3) that report is 
critiqued by another group; and (4) finally, advice is given to the 
institution as to where improvements need to be made, results on most 
occasions in significant improvement to the academic programs and 
institutions in question.
    For example, I know of one institution that had a number of 
overseas and distance learning programs that had developed rather 
quickly. That institution received over 100 recommendations for 
improvement from its accreditor. These recommendations were taken 
seriously, and when the next accreditation visit occurred a decade 
later, the institution had greatly improved its quality and received 
less than ten recommendations following the reaffirmation of 
accreditation process. Frequently, accrediting teams that visit 
institutions are viewed and serve as unpaid consultants to suggest best 
practices to help improve the institution or program.
    The highly regarded Council for Higher Education Accreditation 
(CHEA) has identified nine characteristics of American higher education 
accreditation that make it unique and effective:
    Involves judgments of quality and effectiveness of an institution/
program against a set of expectations (standards, criteria).
    Is a form of non-governmental self-regulation as contrasted to 
compliance with state and/or federal rules, regulations, and codes.
    Is grounded in the institution's or program's mission, history, and 
sense of purpose.
    Acknowledges and respects the autonomy and diversity of 
institutions and programs.
    Provides assurance to the public that accredited institutions and 
programs meet or exceed established public expectations (standards) of 
quality.
    Is the responsibility of an external commission.
    Requires faculty involvement to be valid.
    Is conducted on a cyclical basis, usually 5-10 years. (Shorter 
cycles are used when serious problems are noted.)
    Recently has emphasized student learning and development as an 
important criterion of effectiveness and quality.
    More and more, accreditors are focusing their standards on outcomes 
to a greater degree than inputs. Additionally, they require sound 
planning, sound financial information, basic good governance 
procedures, and quality academic programs. The experience following the 
1992 reauthorization of the Higher Education Act showed that with the 
cooperation of accrediting agencies and the Department of Education, 
student loan default rates could be lowered significantly.
    However, any complex arrangement of this type has areas where 
improvements can be made, and I commend this Committee for looking for 
those areas with this hearing. AASCU is pleased to offer some 
constructive suggestions concerning the existing Higher Education Act 
and regulations.

 I. AREAS FOR POSSIBLE CONSTRUCTIVE CHANGE OF THE HIGHER EDUCATION ACT

Student achievement
    If the statutory standard for student achievement in the HEA is 
amended, it should take into account the differing missions of 
institutions and the respective natures of their student bodies. 
Institutions should maintain the authority to determine which measures 
are appropriate for assessing student achievement in their academic 
programs. One size does not fit all.

Transparency and Disclosure
    AASCU supports greater transparency and disclosure in the 
accreditation process. I suggest that there must be a balance struck 
between the damage that could occur to institutions by disclosure of 
raw accrediting reports and the public's right to know of the quality 
deficiencies of institutions of higher education. The HEA could be 
amended to require accreditors to prepare and make available a brief 
summary of the results of any comprehensive review or significant 
interim reports that led to sanctions, or could require that mandated 
educational reforms required by the accreditor be made public at the 
conclusion of the process. Interim accreditation reports that are 
progress based should not be required to be released, since they 
frequently contain inadvertent errors that may irreparably damage 
institutions if made public before they are properly vetted through the 
process.

Distance Education
    Should Congress determine to expand eligibility for Title IV 
financial aid in distance education, it should utilize accreditation to 
assure quality in new programs or participants. Congress should not 
mandate separate and additional standards for accreditation of such 
programs, since it is the content of programs--and not the delivery 
system--that is important in making judgments about such programs. In 
addition, accreditors should ensure safeguards on the integrity of 
degree programs and the evaluation process used.

Transfer of Credit
    AASCU firmly opposes the direct involvement of the federal 
government in regulating inter-institutional academic practices such as 
the transfer of credit. Such issues are most appropriately handled 
through the collaborative efforts of accreditors and institutions. The 
attached letter from the American Association of Collegiate Registrars 
and Admissions Officers to the Honorable Howard P. ``Buck'' McKeon, 
Chair of the House Subcommittee on 21st Century Competitiveness, dated 
December 15, 2003, accurately reflects the position of AASCU on these 
issues.

                             II. CONCLUSION

    Thus, the American Association of State Colleges and Universities 
supports the current model of federal financial assistance linked to 
accreditation. The current system works quite well in assuring academic 
quality, loan repayment, and accountability. However, AASCU supports 
targeted and specific improvements to the HEA that maintain the 
appropriate balance between federal, state, and institutional 
responsibilities for quality assurance. AASCU continues to believe that 
voluntary regional accreditation:
    Plays a crucial role in maintaining public trust and assuring 
quality, but must become more transparent if it is to remain relevant 
in an environment that emphasizes outcomes and seamlessness;
    Is the best means to avoid governmental intervention into the 
academic affairs of colleges and universities;
    Has a track record of commitment to accountability;
    Has enjoyed considerable success in quality assurance and 
improvement; and
    Assists students, employers, government, and the public by 
providing reliable baseline information about the quality of 
institutions and programs.
    I invite you to work with us in our efforts to improve voluntary 
regional accreditation. I commend you for re-examining these important 
issues and allowing me the opportunity to express our views on them 
today.

                Prepared Statement of Judith Eaton, M.D.

    Chairman Judd Gregg and Members of the Committee: On behalf of the 
Council for Higher Education Accreditation (CHEA), we submit for your 
written record the following testimony on accreditation and Federal 
policy. We respectfully request that it be added to the printed record 
for the Senate Committee on Health, Education, Labor and Pensions 
(HELP) hearing held on February 26, 2004: ``Higher Education 
Accreditation: How Can the System Better Ensure Quality and 
Accountability?''

                                SUMMARY

    There are four major elements to our submission:
    <bullet> a framework, stated in the CHEA Reauthorization Agenda,
    <bullet> comments on witness testimony,
    <bullet> responses to questions and observations from Senators, and
    <bullet> CHEA conclusions about the hearing.
    First we provide a general framework for the committee to consider 
accreditation issues in the Higher Education Act (HEA), building on a 
sound system and making minor improvements to enhance accountability. 
We then comment on the many observations and suggestions made by your 
hearing witnesses, concurring with most and explaining our differences 
with others. We comment on the observations and reply to the questions 
raised by the Senators at the hearing.
    We conclude by noting that the important accreditation issues were 
raised and vital principles were laid on the hearing record. Minor 
adjustments in HEA can improve the accreditation by further 
strengthening its accountability. CHEA has proposed and supports such 
changes, based on the diversity of institutional missions and the 
student bodies served by our highly competitive system of higher 
education. We urge that any HEA amendments on accreditation be narrowly 
drawn and thoroughly vetted to avoid unintended consequences.

                    THE CHEA REAUTHORIZATION AGENDA

    In May 2003, the CHEA Board of Directors approved a document, the 
CHEA Reauthorization Agenda, with general principles to guide the 
Congress as it considers revised HEA legislation. A copy of this two-
page document is enclosed. The Agenda states that voluntary peer-based 
quality assurance by higher education is a sound system that serves the 
public interest well, but that reforms of certain means of 
accreditation could improve the accountability of the overall process. 
It encourages Congress to build upon the strengths of the present 
Federal relationship with accreditation and to reaffirm it as the basis 
of Federal law to assure the quality of higher education institutions 
and programs that receive Federal funding. It proposes expanded 
commitment to accreditation in student learning outcomes, distance 
education, and, additional information to the public the findings of 
accreditation review, as well as a clarification of institutional 
transfer of credit policies. These suggestions are made in the context 
that institutions retain decision-making responsibility for their 
academic policies, based on their varied missions and the diverse 
student bodies they serve. We commend the CHEA Agenda to your 
committee.

                     COMMENTS ON WITNESS TESTIMONY

    The four witnesses before your committee on February 26 provided a 
wide range of ideas and suggestions on HEA and accreditation. In 
general, we concur with most of these views and proposals, with the 
notable exceptions that we oppose the ``delinkage'' of accreditation 
from Federal eligibility and we respectfully disagree with the 
statement that accreditation is failing to carry out its assigned role 
under HEA law.
    Dr. Crow laid out the positive developments in accreditation over 
the last decade and addressed specific accreditation issues under 
active consideration in the Congress: learning outcomes, distance 
education, disclosure and credit transfer. As Dr. Crow noted, his 
suggestions address the same issues as the CHEA Agenda cited above. 
However, we do not endorse his specific statutory language, believing 
that additional discussion with the committee is needed to assure the 
best approach on these issues.
    Dr. Wallin observed that regional accreditation did a good job at 
assuring basic quality, but that other efforts were needed to improve 
assessment in order to address the decline of standards in liberal 
learning. We, of course, associate ourselves with the statement that 
accreditation is doing its job, but believe that recent and ongoing 
efforts by institutions and accreditors are addressing the improved 
assessment needs where appropriate. Dr. Wallin's own American Academy 
for Liberal Education provides a telling example that accreditation can 
address these issues in a better way where institutions seek another 
approach. Like three of your witnesses, we do not encourage the Federal 
Government to add greater controls on the academic work of institutions 
and accreditors.
    We respectfully disagree with the policy direction and specific 
content of Dr. Martin's testimony, as did your other three witnesses. 
We believe that he failed to provide useful and credible evidence to 
support his many claims of systemic failure of accreditation. And we 
oppose the idea that State and Federal regulators could replace the 
thousands of peer-volunteers presently serving to improve quality at 
our colleges and universities in the current accreditation system. The 
unworkable idea of State controls was placed in the HEA in 1992. It was 
known as ``SPRE,'' the State Postsecondary Review Entities. SPRE was 
never implemented, totally discredited, and repealed by the Congress in 
1998.
    Dr. Potts presented a sound rationale for reaffirming the current 
system and making modest adjustments to improve the accountability of 
accreditation in recognition of increased public expectations. Potts 
urged specific proposals put forward by AASCU, the American Association 
of State Colleges and Universities. We agree with Dr. Potts' strong 
statement that the attacks made by Dr. Martin do not conform to his 
personal observations and experience with the National Advisory 
Committee on Institutional Quality and Integrity, the Federal advisory 
body on accreditation, and in the field leading accreditation visiting 
teams. Our own experience and observations support these conclusions of 
Dr. Potts.

            RESPONSES TO SENATORS QUESTIONS AND OBSERVATIONS

    The questions and comments by the Committee Members indicate a 
strong interest in accreditation issues, which we welcome. In our view, 
the hearing served the committee well by illuminating important 
principles in the relationship of the Federal Government with 
accreditation and how the present relationship established under the 
HEA serves the public interest. Your hearing also focused on possible 
areas of improvements in the HEA reauthorization.
    Our comments begin with two points raised at the hearing by Senator 
Gregg, who first observed that the question before the committee was 
whether to change accreditation law in HEA a little or a lot. We 
respectfully suggest that the preponderant balance of evidence from 
both the witnesses and the indications of the views of Senators at the 
hearing should lead your committee to conclude that small changes are 
needed and that massive changes would be counterproductive. We note 
that CHEA and three of the four witnesses are firmly in this camp. 
Concrete suggestions have been brought to the Congress on the best ways 
to do so.
    The second point from Chairman Gregg regarded distance education. 
Several witnesses replied that the law does not and should not add new 
and separate education standards for institutions and their 
accreditors. We concur. While accreditors and institutions have 
developed new techniques and processes to usefully assess distance 
education, the basic premise should be that standards are the same for 
all delivery systems. Should the Congress choose to expand Federal 
eligibility to new distance education programs, accreditation 
organizations have already demonstrated their ability to provide 
quality assurance.
    Senator Alexander made several important statements essential to a 
sound reauthorization of the HEA. We applaud his expressed wariness 
toward any proposal to restrict the autonomy of institutions, because 
autonomy is a key to their success. We likewise applaud his emphasis 
that Federal law does and should direct accreditation to determine 
``sufficient quality'' as the correctly minimal standard, in order to 
receive Federal support. This understanding is vital to sustaining the 
proper balance of government and voluntary activity. It allows 
accreditors to do their work well and keeps them and the government out 
of other areas best left to academic officials on campuses. Also, he 
observed the role of the marketplace of student choices in United 
States higher education and the need to sustain freedom of choice. 
These are foundations of sound accountability in HEA programs.
    We also agree with two other principles Senator Alexander voiced at 
the hearing as very useful guidance for his Senate colleagues. He cited 
grade inflation as a problem, but noted that it should be solved by 
campus presidents, and not by accreditors or the government. And he 
properly rejected the proposed role of States replacing accreditors as 
a useful determinant of minimum quality because ``no State would 
unaccredit itself.''
    Senator Alexander challenged the higher education community to 
offer additional ideas to improve voluntary accreditation while 
maintaining its significant advantages for students, their institutions 
and the public interest. We especially would like to explore the means 
and the implications of his question, also raised by Senator Sessions. 
How can the new HEA law encourage more choices and less monopoly in 
accreditation while sustaining institutional autonomy? Several 
witnesses cited some examples of competition in the present system. 
CHEA hopes that we may be able to provide some ideas to the committee 
that might be helpful.
    In direct reply to two of Senator Alexander's questions, we share 
the views expressed by the several witnesses that it would be difficult 
to improve the Federal interests by expanding the Secretary's authority 
over accreditation or utilizing some special Federal panel for 
accreditation disputes. Either of these two approaches would likely 
upset the balance among Federal and State Government authorities, 
institutions and voluntary, private accreditation organizations. It 
would be especially difficult to establish in law and regulation any 
sound and objective criteria whereby either such authority might be 
invoked.
    Finally, we appreciate the observations made by Senator Clinton on 
the valuable contributions and high quality of our higher education 
institutions and our voluntary system of accreditation. We note 
especially her agreement with Senator Alexander in her statement that 
``the autonomy and independence of the higher-education system is a 
precious asset.'' Senator Clinton's view that higher education and its 
quality assurance serves our country well and should not be upended 
sounds to us like a very useful basis for the HEA deliberations.

                              CONCLUSIONS

    Your February 26 hearing placed on the record the important higher 
education quality assurance issues facing our country. The hearing 
provided a variety of views and offered numerous proposals. With one 
strong exception, the hearing record urges the Congress to reaffirm the 
half-century partnership of voluntary accreditation with the Federal 
Government to assure that higher education institutions and programs 
receiving Federal funds provide a quality education. Two Senators 
stressed that autonomy in academic decisions is a key strength and a 
reason for the success of higher education in our country.
    Minor adjustments can improve the system to address newly-manifest 
public expectations for clear accountability. CHEA has proposed and 
supports such changes, so long as they are rooted in the primacy of 
institutional missions and the different students served by our diverse 
and highly competitive system of higher education. Given the complexity 
and fragility of the vast matrix of colleges, universities and schools 
supported by the HEA, we urge caution that any amendments be narrowly 
drawn and thoroughly vetted to avoid unintended consequences. We repeat 
our offer to serve as technical advisors to the committee in drafting 
amendments, as we have the expertise and contacts with the field to 
understand fully how any change in the HEA law might work in practice.
    Thank you for the opportunity to provide this submission to your 
hearing record.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    [Whereupon, at 3:28 p.m., the committee was adjourned.]


</pre></body></html>
